APPENDIX

TABLE OF APPENDICES
Appendix A
Opinion, United States Court of Appeals
for the Fifth Circuit, Wal-Mart Stores,
Inc. v. Tex. Alcoholic Beverage Comm’n,
No. 18-50299 (Aug. 15, 2019) ...................... App-1
Appendix B
Revised Opinion, United States Court of
Appeals for the Fifth Circuit, Wal-Mart
Stores, Inc. v. Tex. Alcoholic Beverage
Comm’n, No. 18-50299 (Dec. 9, 2019) ....... App-35
Appendix C
Order, United States Court of Appeals for
the Fifth Circuit, Wal-Mart Stores, Inc. v.
Tex. Alcoholic Beverage Comm’n, No. 1850299 (Jan. 7, 2020) .................................. App-71
Appendix D
Order, United States District Court for
the Western District of Texas, Wal-Mart
Stores, Inc. v. Tex. Alcoholic Beverage
Comm’n, No. 1:15-cv-134-RP (Mar. 20,
2018)........................................................... App-73
Appendix E
Relevant Constitutional and Statutory
Provisions................................................. App-139
U.S. Const. art I, §8, cl. 3 .................. App-139
Tex. Alco. Bev. §22.16 ....................... App-139

App-1
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
________________
No. 18-50299
________________
WAL-MART STORES, INC.; WAL-MART STORES TEXAS,
L.L.C.; SAM’S EAST, INC.; QUALITY LICENSING CORP.,
v.

Plaintiffs-Appellees
Cross-Appellants,

TEXAS ALCOHOLIC BEVERAGE COMMISSION; KEVIN
LILLY, Presiding Officer of the Texas Alcoholic
Beverage Commission; IDA CLEMENT STEEN,
Defendants-Appellants
Cross-Appellees,
TEXAS PACKAGE STORES ASSOCIATION, INC.,
Movant-Appellant
Cross-Appellee.
________________
Filed: Aug. 15, 2019
________________
Before: DAVIS, HAYNES, and GRAVES,
Circuit Judges
________________
OPINION
________________

App-2
JAMES E. GRAVES, JR., Circuit Judge:
Plaintiff-Appellee Wal-Mart Stores, Incorporated
and three of its subsidiaries (collectively, “Walmart”),
brought 42 U.S.C. § 1983 claims against the Texas
Alcoholic Beverage Commission and three of its
commissioners (collectively, the “TABC”), to challenge
four Texas statutes (Tex. Alco. Bev. Code §§ 22.04,
22.05, 22.06, 22.16) 1 that govern the issuances of
permits that allow for the retail sale of liquor in Texas
(called “package store” permits, or “P permits”).
Section 22.16 prohibits public corporations from
obtaining P permits in Texas. Walmart argued that
the ban violates the dormant Commerce Clause of the
United States Constitution and the Equal Protection
Clause of the Fourteenth Amendment. Later, we
granted the Texas Package Store Association’s
(“TPSA”) motion to intervene as a matter of right, in
defense of the statutes. See Wal-Mart Stores, Inc. v.
Tex. Alcoholic Beverage Comm’n, 834 F.3d 562 (5th
Cir. 2016).
We now consider the TABC and TPSA’s
(“appellants”) appeal of the district court’s conclusion
that the public corporation ban offends the dormant
Commerce Clause, and Walmart’s cross-appeal of the
district court’s determination that the public
corporation ban does not violate the Equal Protection
Clause. We affirm the part of the district court’s
judgment rejecting Walmart’s Equal Protection
challenge to the public corporation ban. Conversely,
because the district court erred in its findings
1 Walmart’s challenge to Tex. Alco. Bev. Code § 22.06 is not at
issue on appeal.

App-3
regarding the discriminatory nature and burden
imposed by the public corporation ban, Walmart’s
dormant Commerce Clause challenge to § 22.16 is
remanded.
I.

Facts
A.

Texas regulates the sale and importation of
alcoholic beverages through a three-tier system that
requires separate licenses and permits for producers,
wholesalers, and retailers who meet certain eligibility
requirements. See Wine Country Gift Baskets.com v.
Steen, 612 F.3d 809, 818-19 (5th Cir. 2010) (noting
that Texas has a three-tier system “in which producers
sell to state-licensed wholesalers, who sell to statelicensed retailers”). Liquor retailers must obtain a
separate permit for each physical location where
liquor is sold for off-premises consumption. The
permits authorize an unlimited volume of sales from
the permitted location. The TABC is the state agency
responsible for issuing permits and enforcing the
Texas Alcoholic Beverage Code. The TPSA is the trade
association of Texas package stores that are majorityowned by Texans.
There is one permit relevant to this appeal. P
permits authorize the sale of liquor, wine, and ale for
off-premises consumption. Tex. Alco. Bev. Code
§ 22.01. Texas liquor stores must hold a P permit.
At the time of this litigation, there were 2,578
active P permits issued by the TABC, and 574 were
owned by a package store chain (a business holding six
or more P permits). There were 21 active package
store chains. Since 1944, package store chains have
grown in size and volume of sales, although the total

App-4
number
of
package
stores
has
remained
approximately the same. The package store chains
have a significant share of the Texas market, but it is
not clear how much. The largest package store chains
control seven of the nine seats on the TPSA’s executive
committee.
B.
Texas’ public corporation ban proscribes “any
entity which is directly or indirectly owned or
controlled, in whole or in part, by a public corporation”
from obtaining a P permit. Tex. Alco. Bev. Code
§ 22.16(a). The statute defines a “public corporation”
as a corporation “whose shares . . . are listed on a
public stock exchange” or “in which more than 35
persons hold an ownership interest.” Id. § 22.16(b).
Public corporations can hold any of the other seventyfive types of alcohol permits that Texas issues.
Walmart is a retailer that is the largest public
company in the world. 2 Operating approximately
5,000 stores in the U.S., Walmart currently sells beer
or wine in forty-seven states, including 668 locations
in Texas, and liquor in thirty-one states. Walmart’s
goal is to increase its sales and profits from alcoholic
beverages in Texas. Walmart has plans to open liquor
stores adjacent to some of its existing Texas retail
locations. However, because it is a publicly traded
corporation without a majority shareholder, Walmart

2 As of 2018, Walmart had consolidated revenue of over $500
billion, making it the largest company in the world. Fortune 500
Companies 2018: Who Made the List, FORTUNE MAG. (May 21,
2018), http://fortune.com/global500/.

App-5
cannot implement its plan
corporation ban is invalidated.

unless

the

public

Walmart unsuccessfully lobbied the Texas
Legislature to repeal § 22.16. 3 After its failed attempt
to obtain a legislative remedy, Walmart sued the
TABC in federal court to have the judiciary neutralize
the public corporation ban, and this court
subsequently granted the TPSA’s motion to intervene.
After a week-long bench trail, the district court
concluded, inter alia, that the public corporation ban:
(1) has a discriminatory purpose and the ban’s burden
on interstate commerce is clearly excessive when
compared to the local benefits, and (2) does not violate
the Equal Protection Clause. The district court
enjoined the TABC from enforcing the public
corporation ban. This appeal and cross-appeal
followed. We consider whether the public corporation
ban is unconstitutional under the dormant Commerce
Clause and the Equal Protection Clause. 4
II. Standards of Review
We review a district court’s judgment regarding
the constitutionally of a statute de novo. Allstate Ins.
Co. v. Abbott, 495 F.3d 151, 160 (5th Cir. 2007). The
district court’s findings of fact relevant to the
constitutional question are reviewed for clear error.
Id. Because this case involves a dormant Commerce
Along with the other aforementioned statutes that we do not
address at this time.
3

4 The district court exercised subject matter jurisdiction over
this case based on federal question jurisdiction under 28 U.S.C.
§ 1331. We have jurisdiction over this appeal pursuant to 28
U.S.C. § 1291.

App-6
Clause challenge, one threshold issue is whether the
public corporation ban was enacted with the purpose
to discriminate against interstate commerce. Id. at
160-62. In Allstate, this court applied the Arlington 5
factors
to
determine
whether
purposeful
discrimination inspired a state legislature’s actions in
violation of the dormant Commerce Clause. 6
Therefore, we do the same. 7 “[A] district court’s finding
of fact on the question of discriminatory intent is
reviewed for clear error.” Abbott v. Perez, 138 S. Ct.
2305, 2326 (2018). “If the district court’s findings are
plausible in light of the record viewed in its entirety,
we must accept them, even though we might have
weighed the evidence differently if we had been sitting
as a trier of fact.” Veasey v. Abbott, 830 F.3d 216, 229
(5th Cir. 2016) (en banc) (quotation marks omitted).
“However, when the district court’s ‘findings are
infirm because of an erroneous view of the law, a
remand is the proper course unless the record permits
only one resolution of the factual issue.’” Id. (quoting
Pullman-Standard v. Swint, 456 U.S. 273, 292

See Village of Arlington Heights v. Metropolitan Hous. Dev.
Corp., 429 U.S. 252, 266-68 (1977).
5

6

Allstate, 495 F.3d at 160.

Although it is debatable whether the Arlington factors should
be applied when considering whether purposeful discrimination
motivated legislative action in a dormant Commerce Clause case,
given our well-established rule that one panel of the Fifth Circuit
cannot overrule the prior decision of another panel, we need not
consider arguments challenging application of the factors to this
case. See Gardes Directional Drilling v. U.S. Turnkey Expl. Co.,
98 F.3d 860, 868 (5th Cir. 1996) (citing Broussard v. Southern
Pac. Transp. Co., 665 F.2d 1387, 1389 (1982) (en banc)).
7

App-7
(1982)). In the latter case, we should reverse and
render a decision. Id.
III. Challenges
A.
The Supreme Court has long held that the
Commerce Clause “prohibits state laws that unduly
restrict interstate commerce.” Tennessee Wine &
Spirits Retailers Ass’n v. Thomas, 139 S. Ct. 2449,
2459 (2019). This interpretation is known as the
dormant Commerce Clause. “‘This negative aspect of
the Commerce Clause’ prevents the States from
adopting protectionist measures and thus preserves a
national market for goods and services.” Tennessee
Wine, 139 S. Ct. at 2459 (quoting New Energy Co. of
Ind. v. Limbach, 486 U.S. 269, 273 (1988)).
“A statute violates the dormant Commerce Clause
where it discriminates against interstate commerce
either facially, by purpose, or by effect.” Allstate, 495
F.3d at 160. Given that this case involves a law that
regulates liquor retailers, the dormant Commerce
Clause analysis must be considered in light of the
Twenty-first Amendment. Section 2 of the
Amendment grants states the authority to regulate
the transportation, importation, possession, and use of
alcohol within their own borders. See U.S. Const.
amend. XXI, § 2.
Recently, in Tennessee Wine, the Court reaffirmed
what this court had previously concluded: 8 Section 2
8 In Cooper II, this court rejected the TPSA’s assertion that
Commerce Clause protections do not apply to state alcohol laws
regulating the retailers and wholesalers in a three-tier system.
820 F.3d at 743.

App-8
does not grant states the power to violate the
“nondiscrimination principle” of the dormant
Commerce Clause. 139 S. Ct. at 2470 (citing Granholm
v. Heald, 544 U.S. 460, 487 (2005)). The Court
acknowledged that, under § 2, states “remai[n] free to
pursue their legitimate interests” in addressing the
health and safety risks associated with the alcohol
trade. Id. at 2472 (alteration in original) (quotation
marks omitted). Therefore, “each variation [of law]
must be judged based on its own features.” Id.
The Court clarified the standard for evaluating a
discriminatory alcohol-related regulation, charging
courts to “ask whether the challenged [discriminatory]
requirement can be justified as a public health or
safety measure or on some other legitimate
nonprotectionist ground.” Id. at 2474. The standard
has teeth. “[M]ere speculation” or “unsupported
assertions” of fact are insufficient to validate an
otherwise discriminatory law. Id. If the “predominant
effect” of the discriminatory law is protectionism and
not “the protection of public health or safety,” the law
is not shielded by § 2. Id. at 2474. In conducting the
inquiry, courts must look for “concrete evidence” that
the statute “actually promotes public health or safety,”
or evidence that “nondiscriminatory alternatives
would be insufficient to further those interests.” Id.
Section 22.16 is a facially neutral statute that
bans all public corporations from obtaining P permits
irrespective of domicile. Therefore, we focus on
whether the ban was enacted with a discriminatory
purpose or has a discriminatory effect on interstate
commerce.

App-9
B.
Although the district court correctly cited the
Arlington framework, some of its discriminatory
purpose “findings are infirm.” Veasey, 830 F.3d at 230
(quotation marks omitted). The record does not
support “only one resolution of the factual issue,” as
there is evidence that could support the district court’s
finding of a purpose to discriminate, so we must
remand for a reweighing of the evidence on that issue.
Id.
“The burden of establishing that a challenged
statute has a discriminatory purpose under the
Commerce Clause falls on the party challenging the
provision.” Allstate, 495 F.3d at 160. We consider the
following non-exhaustive factors when determining
whether a state legislature’s actions amount to
purposeful
discrimination
against
interstate
commerce: (1) whether the effect of the state action
creates a clear pattern of discrimination; (2) the
historical background of the action, which may include
any history of discrimination by the decisionmakers;
(3) the “specific sequence of events leading up” to the
challenged state action, including (4) any “departures
from normal procedures[;]” and (5) “the legislative or
administrative history of the state action, including
contemporary statements by decisionmakers.” Id.
Legislators’ awareness of a discriminatory effect “is
not enough: the law must be passed because of” that
discriminatory effect. Veasey, 830 F.3d at 231
(applying the Arlington factors). The challenger must
show that the discriminatory effect was “a substantial
or motivating factor” leading to the enactment of the
statute. Id. (quotation marks omitted). If the

App-10
challenger meets that burden, defendants must
“demonstrate that the law would have been enacted
without this factor.” Id.
First, the district court properly found that Texas
has a clear history of discriminating against out-ofstate alcohol retailers. From the passage of its Liquor
Control Act in 1935, Texas had prohibited out-of-state
individuals and companies from owning package
stores. In Cooper v. McBeath, this court invalidated
Texas
laws
imposing
durational
residency
requirements on alcohol retail store owners. 11 F.3d
547 (5th Cir. 1994) (Cooper I). While Cooper I was
pending, the Texas Legislature enacted House Bill
1445, in an attempt to moot the Cooper I litigation.
The bill repealed the residency requirements at issue
in the case. Texas kept durational residency
requirements for other permits. Soon after the
governor of Texas signed the bill, the Cooper I
plaintiffs moved to dismiss the appeal as moot.
However, this court denied the motion and issued an
opinion striking down the residency requirements,
with language broad enough to apply to all the alcohol
permits. Id. at 550-51, 554. Despite the Cooper I
decision, Texas enforced durational residency
requirements as applied to P permits for another
twelve years—stopping enforcement only after the
practice was permanently enjoined by a federal
district court. S. Wine & Spirits of Texas, Inc. v. Steen,
486 F. Supp. 2d 626, 633 (W.D. Tex. 2007). The
evidence relied on by the district court was “not long

App-11
past history.” Veasey, 830 F.3d at 232. Texas
decisionmakers have a history of discrimination. 9
Addressing a second factor, the district court
erred in finding that the legislative history of § 22.16
includes direct evidence of a purpose to discriminate
against interstate commerce. The district court made
much of the fact that § 22.16 was enacted in 1995, one
year after Cooper I. A lawyer and lobbyist who worked
on behalf of the TPSA drafted the corporation ban. The
TPSA, which had vigorously defended the residency
requirements struck down by this court, later
admitted that there was a fear that “large stores could
disrupt what had been a very stable business climate”
and there could be a “Wal-Martization” of the Texas
package store market. Further, the Texas legislature
was aware that, but for the Cooper I decision, the
TPSA would not have suggested and supported the
public corporation ban.
Based largely on those findings regarding the
conduct and motivations of the TPSA, the district
court concluded that the Texas legislature enacted the
public corporation ban with the same protectionist
motivations. This despite the provision’s drafter
testifying that he told legislators the purpose of the
bill was accountability. He was the only witness at the
committee hearings and told the legislators that the
purpose of the bill was to promote accountability, or
“to have real human beings who are easily
identifiable, who are close to the business, and who
ultimately bear personal responsibility for the actions
9 Walmart also argues that actions taken by the TPSA evidence
a history of discrimination. However, the actions of the TPSA do
not control this inquiry.

App-12
of the package store.” Years later—at trial—he
admitted that he “knew that any bill [enacted] might
be challenged” and that his “assignment was to craft a
bill which . . . would survive a commerce clause
challenge.” The district court determined that the
“TPSA’s chief concern was maintaining the business
climate created by the residency requirement,” and
that
the
legitimate
rationales
concerning
accountability were “pretextual.” However, in Veasey,
we reiterated that overreliance on “post-enactment
testimony” from actual legislators is problematic, and
not “the best indicia of the Texas Legislature’s intent.”
Veasey, 830 F.3d at 234. In light of Veasey, after-thefact statements made by a non-legislator are certainly
not sufficient indicia of legislative intent.
The district court did not find evidence connecting
any Texas legislator to the conclusion that the
accountability rationale was pretextual. The only
comments from a Texas legislator the district court
relied on were made by state Senator Kenneth
Armbrister. When asked to explain the purpose of the
public corporation ban, Armbrister stated that the ban
meant “you can’t have a package store inside a
Walmart” and “Walmart can’t own the package store.”
As the district court noted, during the senate floor
debate on Senate Bill 1063 (which became § 22.16),
Armbrister agreed with state Senator Henderson’s
remark that the Legislature “wanted to have
somebody from Texas with a license that you could get
ahold of . . . to enforce the code.”
However, the district court did not provide the
context of the senators’ statements. Armbrister and
Henderson were engaged in a discussion about the

App-13
motivation for the public corporation ban when
Armbrister stated that the purpose was to have a
better way to “track” package store owners.
Specifically, Armbrister stated, “I think what” both
“the industry . . . and the [TABC] was trying to do is a
better tracking system, because . . . you’ve got largescale corporations that operate . . . it all ties in to(sic)
the operation phase.” Henderson replied by explaining
that a corporation could own a package store by
obtaining the permit through a local licensee
(presumably
because
Texas
previously
had
enforceable
durational-residency
requirements),
referring to the mechanism employed by corporations
as a “fake-a-roo.” Next, Armbrister attempted to
explain some exemptions to the ban when Henderson
replied that the “fake-a-roo” was used because the
legislators previously wanted only people from Texas
to hold P permits “to enforce the code.”
Significantly, Henderson asked Armbrister, “It’s
not the bill . . . that keeps foreign ownership from
coming in and . . . getting licenses, that kind of thing?”
(emphasis added). To which Armbrister answered,
“No. Those . . . both those bills are still pending in
committee.” Henderson replied, “Good. Thank you.”
Near the close of the floor debate, the Texas Senate
voted to pass the bill. The floor debate was devoid of
discriminatory remarks directed toward out-of-state
competition generally. The transcript reveals that
there were entirely separate bills being advanced to
address foreign owners. Moreover, the “Explanations
and Arguments” in support of Senate Bill 1063
indicate that the reason for the ban was to ensure that
owners were known to the community and “could be
held accountable for responsible operation.” The

App-14
document further states, “Courts have recently struck
down . . . Texas resident law saying that it penalized
out of state citizens” but there remained a need to
have a human who is easily identifiable and
responsible for the actions of a given package store
business. The legislative history is merely “evidence of
a legislative desire to treat differently two business
forms . . . a distinction based not on domicile but on
business form.” Allstate, 495 F.3d at 161.
There is no direct evidence of a discriminatory
purpose in the legislative history; Plaintiffs rely on
circumstantial evidence. The motivations and
lobbying efforts of the TPSA are not direct evidence of
legislative purpose. An admission that the drafter
sought to create a law that would survive a
constitutional challenge is not evidence of a
discriminatory legislative purpose. There are no
“stray protectionist remarks” in the legislative
history, and even if there were, such remarks “are
insufficient
to
condemn”
an
otherwise
nondiscriminatory statute. Id.
Turning to a third factor, the district court failed
to apply the “presumption of legislative good faith” in
finding that the sequence of events that led to the
enactment of § 22.16 evidences a discriminatory
purpose. Perez, 138 S. Ct. at 2324. In line with the
district court, Walmart relies on the Texas
Legislature’s failed attempt to moot Cooper I during
the 1993 session and the Legislature’s enactment of
the public corporation ban during the 1995 session.
The TABC argues that it is irrelevant that the
corporation ban was enacted in response to Cooper I.
TPSA argues that the district court’s conclusion based

App-15
in part on post-Cooper I conduct is inconsistent with
controlling case law.
In Perez, the Supreme Court made it clear that
“[t]he allocation of the burden of proof and the
presumption of legislative good faith are not changed
by a finding of past discrimination.” Id. at 2324. Past
discrimination is merely one potential evidentiary
source. Id. The district court specifically found that “if
not for the Fifth Circuit striking down Texas’s
residency requirement, TPSA would not have
proposed, and the Legislature would not have enacted,
the ban on public corporations holding package store
permits.”
While that finding might be true, there are
problems with concluding those events evidence a
purpose to discriminate. As stated previously, the
TPSA’s motivations and actions are not sufficient
indicia of legislative intent. As a result, the only
remaining evidence is the Texas Legislature’s actions
in support of a discriminatory purpose during Cooper
I. The district court flipped “the evidentiary burden on
its head” based only on the recent history of
discrimination. Id. at 2325. More than requiring
Walmart to present specific events evidencing a
discriminatory purpose connected to the public
corporation ban, the district court placed the burden
on appellants to provide evidence that the Texas
Legislature had a true “change of heart” with respect
to the residency requirements while enacting a ban
that affects public corporations irrespective of
location. Id. at 2326.
The burden flip was especially problematic
because the district court’s findings arguably indicate

App-16
that the Legislature sought to comply with the
demands of the dormant Commerce Clause. The
district court noted that Texas did not stop enforcing
durational residency requirements as applied to
package store owners until 2007, more than twelve
years after § 22.16 was enacted. This also meant that
the public corporation ban was enforced against Texas
corporations while Texans still believed it was proper
to deny would-be package store owners from outside
the state. As far as the record reveals, Texas
corporations were the only companies affected by the
public corporation ban for at least a decade after it was
enacted. 10 In any event, the district court committed
clear error by failing to apply a presumption of good
faith to the enactment of the public corporation ban.
The previously noted errors are further
compounded because the district court misapplied the
first Arlington factor. The first factor asks whether “a
clear pattern of discrimination emerges from the effect
of the state action.” Allstate, 495 F.3d at 160. The
district court found that the corporation ban had the
“effect of barring nearly all out-of-state companies
with the scale and capabilities necessary to serve the
Texas retail liquor market.” That finding does not
answer the relevant question. For this dormant
Commerce Clause inquiry, the question is: Does the
The public corporation ban does have a “grandfather clause”
that exempts corporations that held a P permit before the day the
statute was enacted. Tex. Alco. Bev. Code. § 22.16(f). Because
Texas enforced durational residency requirements for package
store owners until 2007, the exempted corporations are Texasbased firms. This clause arguably provides some evidence of an
effort by the Legislature to benefit in-state corporations, which
the court can consider along with other evidence in this case.
10

App-17
legislative action affect Walmart based on its status as
an out-of-state public corporation? See Allstate, 495
F.3d at 160-61. This error highlights a general flaw
throughout the district court’s findings.
The evidence indicates that the Legislature
intended to ban public corporations from obtaining P
permits after the state lost its ability to enforce the
durational residency requirements for other permits.
Based on the optics, the district court made several
assertions without considering a critical point: Un-der
the law of the Fifth Circuit, evidence that legislators
intended to ban potential permittees based on
company form alone is insufficient to meet the purpose
element of a dormant Commerce Clause claim. See
Allstate, 495 F.3d at 161-62 (rejecting Allstate’s
discriminatory purpose argument because the
evidence indicated only a desire to treat business
forms differently, without regard to location); Ford
Motor Co. v. Texas Dep’t of Transp., 264 F.3d 493, 50001 (5th Cir. 2001) (rejecting discriminatory purpose
argument because “the legislative history indicate[d]
the legislature’s intent to prevent manufacturers from
utilizing their superior market position to compete
against dealers in the retail car market”); see also
Exxon Corp. v. Maryland, 437 U.S. 117, 125 (1978)
(rejecting claims of disparate treatment because the
statute did “not discriminate against interstate goods”
or favor local companies over interstate companies).
Section 22.16 bans public corporations from obtaining
P permits irrespective of location. The ban’s effect on
all public corporations provides strong evidence that

App-18
the Legislature did not purposefully discriminate
against out-of-state corporations. 11
While the district court committed several errors
in finding that the Legislature adopted the public
corporation ban with a purpose to discriminate
against interest commerce, the record also contains
circumstantial evidence that could support such a
finding. As acknowledged, Texas has a history of
discriminating against out-of-state alcohol retailers.
That history has significant “probative value in
connection” with the discriminatory purpose inquiry.
Veasey, 830 F.3d at 232. However, affirming the
district court’s finding of a purpose to discriminate
based on the history alone would create an odd result.
States should be able to respond to a court deeming
one of its laws unconstitutional. In addition, the
present inquiry is further complicated because Texas
enforced durational residency requirements against
would be P permit holders for years after the public
corporation ban was enacted. In this context,
overreliance on the history alone would be a mistake.
In line with Veasey, 12 and the Supreme Court’s
analysis in Perez, the history of discrimination should
The application of the first Arlington factor underscores why
it is debatable whether the factors should be applied in the
dormant Commerce Clause context. Under Allstate, Ford, and
Exxon, a statute can create an obvious and significant barrier
against out-of-state economic actors and, nevertheless, not
evidence a discriminatory purpose. Good drafting can render the
first Arlington factor hallow.
11

12 830 F.3d at 232 (noting that “relatively contemporary
examples of discrimination identified by the district court are
limited in their probative value in connection with discerning the
Texas Legislature’s intent”).

App-19
be weighed “with any other direct and circumstantial
evidence of th[e] Legislature’s intent.” Perez, 138 S. Ct.
at 2327.
The district court committed errors in its findings
with respect to the other Arlington factors. The
appropriate action is to remand the discriminatory
purpose issue for reconsideration in light of this
opinion. See Veasey, 830 F.3d at 235 (explaining that
discriminatory intent is a factual matter that, when
set aside for an error of law, should be remanded for
further proceedings).
C.
Moving on in the dormant Commerce Clause
analysis, the district court found that the public
corporation ban does not have a discriminatory
effect. 13 The district court reached that determination
by following Allstate, 14 Ford, 15 and Exxon. 16 Exxon is
the controlling dormant Commerce Clause case for
considering a facially neutral statute that bans
The district court also acknowledged its “odd” result, finding
the public corporation ban has a discriminatory purpose but not
a discriminatory effect. As stated in Section III.B of this opinion,
that result was partially attributable to the district court’s
misapplication of the first Arlington factor. However, it also
highlights the logical inconsistency that might result from
applying the Arlington factors in a dormant Commerce Clause
case.
13

14
495 F.3d 162-63 (relying
discriminatory effect argument).

on

Exxon

and rejecting

15 264 F.3d at 500-02 (relying on Exxon and rejecting
discriminatory effect argument).
16 437 U.S. at 125-26 (rejecting argument that statute had a
discriminatory effect).

App-20
particular companies from a retail market. In Exxon,
oil companies brought a dormant Commerce Clause
challenge to invalidate a Maryland statute prohibiting
producers and refiners of petroleum products from
operating retail service stations in the state. The oil
companies argued that the statute had the effect of
protecting in-state independent dealers from out-ofstate competition. Exxon, 437 U.S. at 125. The
plaintiffs relied on the fact that the burden of the
prohibition fell solely on interstate companies. Id.
The Supreme Court rejected the argument and
explained that because “the burden of [a] state
regulation falls on some interstate companies does
not, by itself, establish a claim of discrimination
against interstate commerce.” Id. at 126. The Court’s
reasoning was based on the following factors: (1) The
prohibition did not restrict interstate dealers in the
retail market; (2) did not restrict the flow of interstate
goods; (3) did not place added costs on interstate
goods; and (4) did not distinguish between in-state and
out-of-state retailers in the market. Id. The Court
declared that the absence of those factors
“distinguishe[d] th[e] case from those in which a State
has been found to have discriminated against
interstate commerce.” Id. A burden on some interstate
companies is not a violation if “in-state [retailers] will
have no competitive advantage over out-of-state
[retailers].” Id.
In Ford, this court considered Exxon and rejected
the plaintiff’s discriminatory effect argument. The
case involved a Texas statute that banned automobile
manufacturers from obtaining a license to become car
dealers in the state. This court explained that a

App-21
statute should be examined by “its effect on similarly
situated business entities.” Ford, 264 F.3d at 501.
Ford had failed to show that the Texas statute in
question “discriminate[d] according to the ex-tent of a
business entity’s contacts with the State. . . . [B]ut
rather [showed discrimination] on the basis of Ford’s
status as an automobile manufacturer.” Id. at 502. It
was irrelevant whether Ford is domiciled in Texas or
Michigan. Id. Either way, Ford was proscribed from
entering the Texas automobile retail market. The
statute, however, did not discriminate against
independent automobile dealers seeking to enter the
Texas market. Id. Even if the statute “prevent[ed]
manufacturers from utilizing their superior market
position to compete against dealers in the retail car
market[,]” the statute did not have a discriminatory
effect on interstate commerce. Id. at 500. A statute can
have a discriminatory effect if it provides a
“competitive advantage to in-state interests vis-à-vis
similarly situated out-of-state interests.” Id. at 501
(emphasis added).
Allstate is the most recent of the controlling
cases. 17 Allstate, which con-trolled approximately 15%
In Churchill Downs Inc. v. Trout, this court acknowledged
that, “[i]n cases where the challenged statutes are facially
neutral, the Supreme Court has evinced a reluctance to take an
expansive view of the concept of ‘discriminatory effects.’” 589 F.
App’x 233, 236 (5th Cir. 2014). This court noted that the Court
reached the conclusion in Exxon by using a narrow definition of
“substantially similarly entities.” Id. The Court has been mostly
reluctant to find that a facially neutral statute has a
discriminatory effect. See id. (discussing Minnesota v. Clover Leaf
Creamery Co., 449 U.S. 456, 458 (1981), in which the court upheld
a facially-neutral statute); id. at n.7 (citing Erwin Chemerinsky,
Constitutional Law 447 (4th ed. 2011) (citing Clover Leaf as an
17

App-22
of the automobile insurance market in Texas, initiated
a plan to enter the auto body repair business by
acquiring Sterling Collision Centers, Inc. (“Sterling”).
Sterling was a multi-state chain of repair shops,
including 15 shops in Texas. 495 F.3d at 155. Allstate
believed it could minimize expenses for unnecessary
or overpriced repairs, and eventually started
funneling repair opportunities to Sterling instead of
other local repair shops. Id. Texas later passed a bill
that barred insurers from acquiring an interest in
auto body shops. 18 Id. at 156. Allstate later filed suit,
arguing in part that the bill violated the dormant
Commerce Clause. Allstate chiefly argued that the bill
was part of a coordinated political effort to hurt its
Sterling venture and to maintain the market
dominance of local Texas body shops. Id. The district
court rejected the claim. Id. at 157.
On appeal, the plaintiffs argued that the bill had
a discriminatory effect because it favored in-state
companies and would shift some services from out-ofstate providers to in-state providers. 495 F.3d at 162.
Relying principally on Exxon, this court rejected the
discriminatory effect argument, stating that “[a]
statute impermissibly discriminates only when it
discriminates between similarly situated in-state and
out-of-state interests.” Id. at 163.
In the present case, the public corporation ban
treats in-state and out-of-state public corporations the
additional example of a case where “discriminatory impact” did
not invalidate a facially neutral statute)).
18 The bill also included a grandfather clause that exempted
facilities already open for business at the time. Allstate, 495 F.3d
at 157 n.6.

App-23
same. Neither in-state nor out-of-state public
corporations may obtain a P permit or own a package
store. There are “no barriers whatsoever to out-ofstate” companies obtaining P permits so long as they
are not a public corporation as defined by the statute.
Allstate, 495 F.3d at 163. Further, § 22.16 does not
“prohibit the flow of interstate [liquor retail products],
place additional costs upon [out-of-state retailers], or
distinguish between in-state and out-of-state
companies in the retail market.” Id. (quotation marks
omitted). “[T]he absence of any of these factors fully
distinguishes this case from those in which a State has
been found to have discriminated against interstate
commerce.” Id. (quotation marks omitted). As the
district court noted, Texas-based public corporations
are prohibited from selling liquor in the state.
Meanwhile, several companies owned by out-of-state
residents have entered the Texas liquor retail market,
including one of the ten largest liquor retailers in the
state. 19 Despite the fact that the public corporation
ban undoubtedly blocks some economic actors from
entering the Texas liquor retail market, 20 we agree
with the district court that the ban does not have a
discriminatory effect on interstate commerce. 21
Fine Wines & Spirits of North Texas, LLC is owned by a
Maryland resident.
19

See Ford, 264 F.3d at 512 (Jones, J., concurring) (concurring
because Exxon is controlling but noting the barrier to retail
competition from out-of-state).
20

21 There is a tension, however, between the Court’s analysis in
Exxon and dicta from its recent opinion in Tennessee Wine. 139
S. Ct. 2449. The case involved a set of Tennessee laws that placed
durational-residency requirements on those seeking to obtain or
renew a license to operate a liquor store in the state. Id. at 2456.

App-24
Because the district court committed clear error
in finding that § 22.16 was enacted with a purpose to
discriminate against interstate commerce, and given
that we have concluded that the facially neutral ban
does not have a discriminatory effect, we must remand

One of the provisions provided that a corporation could not obtain
a license to operate a liquor store unless all its stockholders are
residents of Tennessee. Id. at 2457. The Sixth Circuit had
previously found that provision facially discriminatory and
affirmed that it violated the dormant Commerce Clause. Byrd v.
Tennessee Wine & Spirits Retailers Ass’n, 883 F.3d 608, 626, 628
(6th Cir.), cert. granted, 139 S. Ct. 52 (2018), and aff’d sub nom.
Tennessee Wine, 139 S. Ct. 2449. The provision was not at issue
in Tennessee Wine, but the majority commented on its
discriminatory nature and its practical effect. The Court referred
to the 100-percent-resident shareholder requirement as a
“blatant” violation of the Commerce Clause. Id. at 2457. The
Court also noted that the practical effect of the provision was that
“no corporation whose stock is publicly traded may operate a
liquor store in the State.” Id. But the Court did not say more on
that point. Concluding the opinion, the majority added that “the
predominant effect” of the 100-percent-resident shareholder
provision was to protect members of the Tennessee Wine and
Spirits Retailers Association from out-of-state competition. Id. at
2476. The dicta in that opinion leaves many questions to be
answered. Was the predominant effect of the provision
protectionism because it was facially discriminatory or because
of its practical effect? The Tennessee laws were all facially
discriminatory, so the Court never conducted a discriminatory
effect analysis. As this court has previously noted, “jurisprudence
in the area of the dormant Commerce Clause is, quite simply, a
mess.” Churchill Downs, 589 F. App’x at 235. Because of the
ambiguity in the dicta from Tennessee Wine, we decline to
conclude that the Court meant to alter the discriminatory effect
analysis when specifically considering a general public
corporation ban. Exxon remains the controlling Supreme Court
precedent.

App-25
this case for reconsideration of whether the ban was
enacted with a discriminatory purpose.
D.
The district court analyzed another means by
which it concluded could invalidate a statute under
the dormant Commerce Clause even if the statute did
not discriminate facially, in purpose or in effect. The
district court concluded that “a law that does not
directly discriminate against interstate commerce”
can still violate the dormant Commerce Clause if it
imposes a burden on interstate commerce that is
“clearly excessive” in relation to the “putative local
benefits.” Pike v. Bruce Church, Inc., 397 U.S. 137, 142
(1970)). The district court determined that § 22.16
violates the dormant Commerce Clause under the Pike
test. We conclude that remand is needed on this
ground as well.
A court should consider: (1) whether the law
burdens interstate commerce; 22 (2) whether there is a
“legitimate local interest” in the law; 23 and (3) when
both are present, if the extent of the burden should be
tolerated based on the local interest involved,
including if the interest “could be promoted as well
with a lesser impact on interstate activities.” 24 The
inquiry is known as the Pike balancing test. Churchill
Downs, 589 F. App’x at 237. When applying the Pike
test in this context, “[a] statute imposes a burden
when it inhibits the flow of goods interstate.” Allstate,
495 F.3d 151. Having already held that the public
22

Pike, 397 U.S. at 142.

23

Id.

24

Id. (emphasis added).

App-26
corporation ban was enacted with a purpose to
discriminate, the district court further concluded that
“the burden imposed on [interstate] commerce” by the
public corporation ban “is clearly excessive in relation
to the putative local benefits.” Pike, 397 U.S. at 142.
Appellants argue that the Pike test does not apply
to a nondiscriminatory regulation of alcohol beverage
retailing under the Twenty-first Amendment. 25
Walmart contends that the controlling case law is
clear that Pike can be applied to alcohol-related laws
despite the Twenty-first Amendment.
The Supreme Court has not considered the issue.
Further, none of our sister circuits have struck down
a state regulation of liquor under Pike while also
concluding that the Twenty-first Amendment applied.
See Lebamoff Enterprises, Inc. v. Huskey, 666 F.3d
455, 467 (7th Cir. 2012) (Hamilton, J., concurring)
(“What we do not find is a case applying Pike
balancing and holding that a non-discriminatory state
alcohol law flunks.”). Compare Baude v. Heath, 538
F.3d 608 (7th Cir. 2008) (striking down statute that
was discriminatory in effect while citing Pike without
addressing the Twenty-first Amendment) with
Lebamoff, 666 F.3d at 468 (Hamilton, J., concurring)
(“The Baude opinion does not, however, provide a
persuasive basis for applying Pike balancing to
nondiscriminatory state alcohol laws.”). Application of
Pike in the face of § 2 of the Twenty-first Amendment
is questionable in light of the Court’s recent
25 The TPSA asserts that Walmart failed to litigate Pike in the
district court. However, Pike was either cited or raised by the
parties numerous times during the district court proceedings.
Walmart did not waive the Pike issue.

App-27
declaration that states “remai[n] free to pursue”
legitimate interests aimed at regulating the ill-effects
and risks associated with the alcohol trade. Tennessee
Wine, 139 S. Ct. at 2472 (alteration in original)
(quotation marks omitted). 26
However, in Tennessee Wine, the Court
“reiterate[d] that the Commerce Clause by its own
force restricts state protectionism.” 139 S. Ct. at 2461
(emphasis added). While that is an ambiguous
statement from a case involving a facially
discriminatory provision, it is a signal that we need
not get ahead of the Court by concluding that Pike
balancing cannot be applied to a facially neutral
regulation of alcohol retailing. 27 So we proceed with
the test.
This is also true in light of the Court’s acknowledgement that
three-tier systems for the control and distribution of alcohol are
“unquestionably legitimate.” Granholm, 544 U.S. at 488-89
(quotation marks omitted). Various nondiscriminatory laws
passed under three-tier systems place at least some burden on
interstate commerce. Pike balancing might be decisive in many
cases. See Lebamoff, 666 F.3d at 469 (Hamilton, J., concurring).
Granting courts the power to substitute a legislature’s policy
considerations with its own when considering nondiscriminatory
alcohol-related laws seems to be in direct tension with state
power granted by § 2. Such tension lends support for Justice
Scalia’s contention that the Pike “inquiry is ill suited to the
judicial function and should be undertaken rarely if at all.” CTS
Corp. v. Dynamics Corp. of Am., 481 U.S. 69, 95 (1987)
(concurring).
26

27 The Court has cited Pike in dormant Commerce Clause cases
involving alcohol-related laws. See Brown-Forman Distillers
Corp. v. New York State Liquor Auth., 476 U.S. 573, 579 (1986)
(evaluating the constitutionality of state’s lowest-price
affirmation provision of alcohol control law); Bacchus Imports,
Ltd. v. Dias, 468 U.S. 263, 270 (1984) (considering the

App-28
The inquiry ends at our first step in the analysis.
The district court determined that the public
corporation ban places a substantial burden on
interstate commerce because it protects package
stores owned by Texas residents from out-of-state
market entrants. The district court relied on evidence
that 98% of the package stores in Texas are owned by
in-state residents. Additionally, Walmart provided
evidence that numerous out-of-state companies would
enter the Texas liquor retail market if the ban was not
in place. Appellants argued that the ban places an
equal burden on in-state companies, presenting
evidence that the number of publicly traded
companies domiciled in Texas that are barred by the
ban is roughly proportional to Texas’ share of the
national population and national economy. The
district court rejected appellants’ evidence and
declared that “assessing disparate impact requires the
Court to measure the effect the public corporation ban
has on the in-state and out-of-state companies that
would otherwise serve the market if not for the ban.”
There is no authority which supports that conclusion.
The district court’s analysis overlooks the
controlling precedent. In Exxon, the Court instructed
that the Commerce “Clause protects the interstate
market, not particular interstate firms.” Exxon, 437
U.S. at 128 (emphases added). The Court explained
that interstate commerce is not “subjected to an
impermissible burden” because some potential
participants are shifted out of the in-state market. Id.
constitutionality of a liquor excise tax). In the absence of
controlling authority, we will not exempt an entire category of
laws from the Pike test.

App-29
at 127. 28 As noted in Allstate, “[t]he Supreme Court
has ‘rejected the notion that the Commerce Clause
protects the particular structure or methods of
operation in a . . . market.’” Allstate, 495 F.3d at 16364 (quoting CTS Corp., 481 U.S. at 93-94). In that
case, this court rejected the assertion that there was a
substantial burden on interstate commerce, in part
because the Texas law in question did not prohibit
interstate economic actors from entering the in-state
market. Id. at 164 (rejecting assertion that a
company’s inability to expand imposes a burden on
interstate commerce). Similar to Allstate, appellants
in the present case have provided evidence that
several package stores in Texas are owned and
operated by out-of-state residents. See id. (finding the
same).
The district court should have considered
evidence addressing the public corporation ban’s effect
on the flow of interstate goods, or how the ban affects
the flow of the potential market participant’s goods to
the Texas liquor retail market. See id. at 163 (“A
statute imposes a burden when it inhibits the flow of
Walmart incorrectly asserts that Lewis v. BT Inv. Managers,
Inc., informs the Pike inquiry in this case. 447 U.S. 27 (1980). The
Court made it clear that the prohibition in that case
discriminated among similarly situated business entities
according to their contact with the local state economy. See id. at
42 (“It follows that [the statue] discriminates among affected
business entities according to the extent of their contacts with
the local economy. The absence of a similar discrimination
between interstate and local producer-refiners was a most critical
factor in Exxon.”) (emphasis in original). The Court determined
that the statute had a discriminatory effect but concluded that it
failed the Pike test. Id. Again, Exxon, Ford, and Allstate are
controlling in this case.
28

App-30
goods interstate.”); Ford, 264 F.3d at 503 (finding the
plaintiff “failed to demonstrate that [the statute] will
burden commerce by inhibiting the flow of interstate
goods”); see also Exxon, 437 U.S. at 126 n.16 (“If the
effect of a state regulation is to cause local goods to
constitute a larger share, and goods with an out-ofstate source to constitute a smaller share, of the total
sales in the market. . . the regulation may have a
discriminatory effect on interstate commerce.”).The
record is devoid of such evidence. Therefore, a remand
is necessary to allow the trial court to find facts for
proper application of the Pike test. 29
We vacate the portion of the district court’s
judgment that the public corporation ban violates the
dormant Commerce Clause because remand is
warranted on two separate grounds.
E.
The district court also determined that the public
corporation ban does not violate the Equal Protection
Clause because the ban is rationally related to the
state’s legitimate purpose of reducing the availability
and consumption of liquor throughout Texas. Walmart
argues that (1) heightened scrutiny should apply to
the ban because the law imposes an “absolute
deprivation” of a benefit due to the applicant’s
supposed wealth; and (2) the ban has the hallmarks of
“animus” against public corporations. Walmart adds
that the ban is also irrational. Appellants argue that
29 The district court also found that the public corporation ban
is rationally related to a legitimate state interest. However,
because there is not a sufficient factual record to weigh against
the state interest, we do not consider the issue at this time. A
remand is warranted.

App-31
the public corporation ban is an economic regulation
that is not subject to heightened review and clearly
survives rational basis review. We agree with the
latter.
Under the Equal Protection Clause of the
Fourteenth Amendment, “[n]o State shall . . . deny to
any person within its jurisdiction the equal protection
of the laws.” U.S. Const. amend. XIV, § 1. Walmart
has failed to provide support for its assertion that a
general ban on public corporations warrants
heightened scrutiny. 30 Walmart is not a member of a
protected class and the public corporation does not
infringe upon a fundamental right. Therefore, we
apply a rational basis review. Hines v. Alldredge, 783
F.3d 197, 202-03 (5th Cir. 2015). “Under this
standard, a legislative classification ‘must be upheld
against equal protection challenge if there is any
reasonably conceivable state of facts that could
provide a rational basis for the classification.’” Glass
v. Paxton, 900 F.3d 233, 244-45 (5th Cir. 2018)
(quoting FCC v. Beach Commc’ns, Inc., 508 U.S. 307,
313 (1993)). The parties challenging the “presumption
of validity” granted to legislative classifications must
Walmart’s contention, that the ban was enacted with animus
toward public corporations generally and animus toward
Walmart specifically, may be true. However, Walmart has failed
to provide a single case indicating that heightened scrutiny
should be applied to such an Equal Protection Claim. Walmart
cites Bishop v. Smith. 760 F.3d 1070, 1099-1100 (10th Cir. 2014)
(Holmes, J., concurring). However, Bishop did not involve an
application of heightened scrutiny based on animus toward
corporations. Walmart has also failed to provide support for its
contention that a corporation’s perceived wealth warrants
inclusion in a protected class.
30

App-32
negate every conceivable basis which might support
he legislation. Id. at 245.
Rational basis review is fact intensive. The review
“places no affirmative evidentiary burden on the
government, [but] plaintiffs may nonetheless negate a
seemingly plausible basis for the law by adducing
evidence of irrationality. St. Joseph Abbey v. Castille,
712 F.3d 215, 223 (5th Cir. 2013). While a
“hypothetical rationale” is acceptable, it “cannot be
fantasy.” Id. The government action “must rationally
relate to the state interests it articulates.” Id. the
government action “must rationally relate to the state
interests it articulates.” Id. “[W]e will examine the
State[’s] rationale informed by the setting and history
of the challenged rule.” Id.
The district court determined that the public
corporation ban is conceivably related to Texas’
legitimate purpose to reduce the availability and
consumption of liquor. On appeal, Walmart contends
that
this
conclusion
was
made
up
of
“hypothetical . . . lawful links.” Walmart adds that
allowing the ban would “justify banning any group the
Legislature might conceivably believe would be more
successful at retail” and the hypothetical is “contrary
to basic economic truth.” Walmart’s pleas are
unavailing.
Walmart does not dispute that Texas has a
legitimate interest in regulating the consumption of
liquor and limiting the effects of liquor-related
externalities. The state could believe that excluding
public corporations reduces both the total number of
package store firms and overall liquor consumption,
driving up prices. Relatedly, it is more than

App-33
reasonable to assume that the state believed that
public corporations have the capital and scale to offer
liquor well below current prices. In fact, that
assumption was included in Walmart’s argument that
the public corporation ban keeps liquor prices
“artificially high” and forces consumers to pay “noncompetitive prices.” Walmart’s own arguments
support the district court’s conclusion. Walmart has
not negated the theory that excluding public
corporations from the liquor retail market increases
prices. We conclude that there is a rational basis for
Texas’ decision to ban all public corporations from
obtaining P permits. The public corporation ban does
not violate the Equal Protection Clause.
F.
While this appeal was pending, the governor of
Texas signed into law House Bill 1545. Section 82 of
the bill raises the five P permit limit created by Tex.
Alco. Bev. Code § 22.04, to 250 P permits. A permittee
may obtain up to 15 original P permits each year, and
an unlimited number of permits purchased from
already-existing stores. Section 85 of the bill repeals
Tex. Alco. Bev. Code § 22.05, the consanguinity
exception to the five-permit limit. The bill takes effect
on September 1, 2019. Tex. H.B. 1545, §§ 82, 84.
Walmart now seeks to withdraw its challenges to
§§ 22.04 and 22.05, and has requested that we vacate
the district court’s judgment in its favor with respect
to those challenges. The parties agree that we should
vacate the district court’s judgment in Walmart’s favor
with respect to those challenges. 31 Accordingly, we do
31 Walmart did not file a motion but made its request in a
Federal Rule of Appellate Procedure 28(j) letter submitted to this

App-34
not address Walmart’s challenges to §§ 22.04 and
22.05. The challenges are withdrawn. Remand is
warranted in this case, and we leave for the district
court to consider in the first instance whether the
judgment in favor of Walmart with respect to §§ 22.04
and 22.05 should be vacated.
IV. Conclusion
For the reasons stated above, the district court’s
judgment enjoining enforcement of § 22.16 is
VACATED. The district court’s judgment that § 22.16
does not violate the Equal Protection Clause is
AFFIRMED. The district court’s judgment that
§ 22.16 offends the dormant Commerce Clause is
VACATED and REMANDED for further proceedings
consistent with this opinion.

court on June 17, 2019. On June 19, 2019, the TPSA submitted a
response to the 28(j) letter agreeing with Walmart. The TABC
submitted a response on June 20, 2019, agreeing that the district
court’s judgment should be vacated.

App-35
Appendix B
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
________________
No. 18-50299
________________
WAL-MART STORES, INC.; WAL-MART STORES TEXAS,
L.L.C.; SAM’S EAST, INC.; QUALITY LICENSING CORP.,
v.

Plaintiffs-Appellees
Cross-Appellants,

TEXAS ALCOHOLIC BEVERAGE COMMISSION; KEVIN
LILLY, Presiding Officer of the Texas Alcoholic
Beverage Commission; IDA CLEMENT STEEN,
Defendants-Appellants
Cross-Appellees,
TEXAS PACKAGE STORES ASSOCIATION, INC.,
Movant-Appellant
Cross-Appellee.
________________
Filed: Dec. 9, 2019
________________
Before: DAVIS, HAYNES, and GRAVES,
Circuit Judges
________________
ON PETITION FOR REHEARING
________________
OPINION
________________

App-36
JAMES E. GRAVES, JR., Circuit Judge:
The petition for panel rehearing is GRANTED.
We withdraw the previous opinion issued August 15,
2019, 935 F.3d 362, and substitute the following:
Plaintiff-Appellee Wal-Mart Stores, Incorporated
and three of its subsidiaries (collectively, “Walmart”),
brought 42 U.S.C. § 1983 claims against the Texas
Alcoholic Beverage Commission and three of its
commissioners (collectively, the “TABC”), to challenge
four Texas statutes (Tex. Alco. Bev. Code §§ 22.04,
22.05, 22.06, 22.16) 1 that govern the issuances of
permits that allow for the retail sale of liquor in Texas
(called “package store” permits, or “P permits”).
Section 22.16 prohibits public corporations from
obtaining P permits in Texas. Walmart argued that
the ban violates the dormant Commerce Clause of the
United States Constitution and the Equal Protection
Clause of the Fourteenth Amendment. Later, we
granted the Texas Package Store Association’s
(“TPSA”) motion to intervene as a matter of right, in
defense of the statutes. See Wal-Mart Stores, Inc. v.
Tex. Alcoholic Beverage Comm’n, 834 F.3d 562 (5th
Cir. 2016).
We now consider the TABC and TPSA’s
(“appellants”) appeal of the district court’s conclusion
that the public corporation ban offends the dormant
Commerce Clause, and Walmart’s cross-appeal of the
district court’s determination that the public
corporation ban does not violate the Equal Protection
Clause. Because the district court erred in its findings
1 Walmart’s challenge to Tex. Alco. Bev. Code § 22.06 is not at
issue on appeal.

App-37
regarding the public corporation ban’s discriminatory
purpose, we vacate and remand in part. Next, we
reverse and render for Defendants on the ban’s
discriminatory effect or burden under the Pike test.
Lastly, we affirm that part of the district court’s
judgment rejecting Walmart’s Equal Protection
challenge to the public corporation ban.
I.

Facts
A.

Texas regulates the sale and importation of
alcoholic beverages through a three-tier system that
requires separate licenses and permits for producers,
wholesalers, and retailers who meet certain eligibility
requirements. See Wine Country Gift Baskets.com v.
Steen, 612 F.3d 809, 818-19 (5th Cir. 2010) (noting
that Texas has a three-tier system “in which producers
sell to state-licensed wholesalers, who sell to statelicensed retailers”). Liquor retailers must obtain a
separate permit for each physical location where
liquor is sold for off-premises consumption. The
permits authorize an unlimited volume of sales from
the permitted location. The TABC is the state agency
responsible for issuing permits and enforcing the
Texas Alcoholic Beverage Code. The TPSA is the trade
association of Texas package stores that are majorityowned by Texans.
There is one permit relevant to this appeal. P
permits authorize the sale of liquor, wine, and ale for
off-premises consumption. Tex. Alco. Bev. Code
§ 22.01. Texas liquor stores must hold a P permit.
At the time of this litigation, there were 2,578
active P permits issued by the TABC, and 574 were
owned by a package store chain (a business holding six

App-38
or more P permits). There were 21 active package
store chains. Since 1944, package store chains have
grown in size and volume of sales, although the total
number
of
package
stores
has
remained
approximately the same. The package store chains
have a significant share of the Texas market, but it is
not clear how much. The largest package store chains
control seven of the nine seats on the TPSA’s executive
committee.
B.
Texas’ public corporation ban proscribes “any
entity which is directly or indirectly owned or
controlled, in whole or in part, by a public corporation”
from obtaining a P permit. Tex. Alco. Bev. Code
§ 22.16(a). The statute defines a “public corporation”
as a corporation “whose shares . . . are listed on a
public stock exchange” or “in which more than 35
persons hold an ownership interest.” Id. § 22.16(b).
Public corporations can hold any of the other seventyfive types of alcohol permits that Texas issues.
Walmart is a retailer that is the largest public
company in the world. 2 Operating approximately
5,000 stores in the U.S., Walmart currently sells beer
or wine in forty-seven states, including 668 locations
in Texas, and liquor in thirty-one states. Walmart’s
goal is to increase its sales and profits from alcoholic
beverages in Texas. Walmart has plans to open liquor
stores adjacent to some of its existing Texas retail
2 As of 2018, Walmart had consolidated revenue of over $500
billion, making it the largest company in the world. Fortune 500
Companies 2018: Who Made the List, FORTUNE MAG. (May 21,
2018), http://fortune.com/global500/.

App-39
locations. However, because it is a publicly traded
corporation without a majority shareholder, Walmart
cannot implement its plan unless the public
corporation ban is invalidated.
Walmart unsuccessfully lobbied the Texas
Legislature to repeal § 22.16. 3 After its failed attempt
to obtain a legislative remedy, Walmart sued the
TABC in federal court to have the judiciary neutralize
the public corporation ban, and this court
subsequently granted the TPSA’s motion to intervene.
After a week-long bench trail, the district court
concluded, inter alia, that the public corporation ban:
(1) has a discriminatory purpose and the ban’s burden
on interstate commerce is clearly excessive when
compared to the local benefits, and (2) does not violate
the Equal Protection Clause. The district court
enjoined the TABC from enforcing the public
corporation ban. This appeal and cross-appeal
followed. We consider whether the public corporation
ban is unconstitutional under the dormant Commerce
Clause and the Equal Protection Clause. 4
II. Standards of Review
We review a district court’s judgment regarding
the constitutionally of a statute de novo. Allstate Ins.
Co. v. Abbott, 495 F.3d 151, 160 (5th Cir. 2007). The
district court’s findings of fact relevant to the
Along with the other aforementioned statutes that we do not
address at this time.
3

4 The district court exercised subject matter jurisdiction over
this case based on federal question jurisdiction under 28 U.S.C.
§ 1331. We have jurisdiction over this appeal pursuant to 28
U.S.C. § 1291.

App-40
constitutional question are reviewed for clear error.
Id. Because this case involves a dormant Commerce
Clause challenge, one threshold issue is whether the
public corporation ban was enacted with the purpose
to discriminate against interstate commerce. Id. at
160-62. In Allstate, this court applied the Arlington 5
factors
to
determine
whether
purposeful
discrimination inspired a state legislature’s actions in
violation of the dormant Commerce Clause. 6
Therefore, we do the same. 7 “[A] district court’s finding
of fact on the question of discriminatory intent is
reviewed for clear error.” Abbott v. Perez, 138 S. Ct.
2305, 2326 (2018). “If the district court’s findings are
plausible in light of the record viewed in its entirety,
we must accept them, even though we might have
weighed the evidence differently if we had been sitting
as a trier of fact.” Veasey v. Abbott, 830 F.3d 216, 229
(5th Cir. 2016) (en banc) (quotation marks omitted).
“However, when the district court’s ‘findings are
infirm because of an erroneous view of the law, a
remand is the proper course unless the record permits
only one resolution of the factual issue.’” Id. (quoting
See Village of Arlington Heights v. Metropolitan Hous. Dev.
Corp., 429 U.S. 252, 266–68 (1977).
5

6

Allstate, 495 F.3d at 160.

Although it is debatable whether the Arlington factors should
be applied when considering whether purposeful discrimination
motivated legislative action in a dormant Commerce Clause case,
given our well-established rule that one panel of the Fifth Circuit
cannot overrule the prior decision of another panel, we need not
consider arguments challenging application of the factors to this
case. See Gardes Directional Drilling v. U.S. Turnkey Expl. Co.,
98 F.3d 860, 868 (5th Cir. 1996) (citing Broussard v. Southern
Pac. Transp. Co., 665 F.2d 1387, 1389 (1982) (en banc)).
7

App-41
Pullman-Standard v. Swint, 456 U.S. 273, 292
(1982)). In the latter case, we should reverse and
render a decision. Id.
III. Challenges
A.
The Supreme Court has long held that the
Commerce Clause “prohibits state laws that unduly
restrict interstate commerce.” Tennessee Wine &
Spirits Retailers Ass’n v. Thomas, 139 S. Ct. 2449,
2459 (2019). This interpretation is known as the
dormant Commerce Clause. “‘This negative aspect of
the Commerce Clause’ prevents the States from
adopting protectionist measures and thus preserves a
national market for goods and services.” Tennessee
Wine, 139 S. Ct. at 2459 (quoting New Energy Co. of
Ind. v. Limbach, 486 U.S. 269, 273 (1988)).
“A statute violates the dormant Commerce Clause
where it discriminates against interstate commerce
either facially, by purpose, or by effect.” Allstate, 495
F.3d at 160. Given that this case involves a law that
regulates liquor retailers, the dormant Commerce
Clause analysis must be considered in light of the
Twenty-first Amendment. Section 2 of the
Amendment grants states the authority to regulate
the transportation, importation, possession, and use of
alcohol within their own borders. See U.S. Const.
amend. XXI, § 2.
Recently, in Tennessee Wine, the Court reaffirmed
what this court had previously concluded: 8 Section 2

8 In Cooper II, this court rejected the TPSA’s assertion that
Commerce Clause protections do not apply to state alcohol laws

App-42
does not grant states the power to violate the
“nondiscrimination principle” of the dormant
Commerce Clause. 139 S. Ct. at 2470 (citing Granholm
v. Heald, 544 U.S. 460, 487 (2005)). The Court
acknowledged that, under § 2, states “remai[n] free to
pursue their legitimate interests” in addressing the
health and safety risks associated with the alcohol
trade. Id. at 2472 (alteration in original) (quotation
marks omitted). Therefore, “each variation [of law]
must be judged based on its own features.” Id.
The Court clarified the standard for evaluating a
discriminatory alcohol-related regulation, charging
courts to “ask whether the challenged [discriminatory]
requirement can be justified as a public health or
safety measure or on some other legitimate
nonprotectionist ground.” Id. at 2474. The standard
has teeth. “[M]ere speculation” or “unsupported
assertions” of fact are insufficient to validate an
otherwise discriminatory law. Id. If the “predominant
effect” of the discriminatory law is protectionism and
not “the protection of public health or safety,” the law
is not shielded by § 2. Id. at 2474. In conducting the
inquiry, courts must look for “concrete evidence” that
the statute “actually promotes public health or safety,”
or evidence that “nondiscriminatory alternatives
would be insufficient to further those interests.” Id.
Section 22.16 is a facially neutral statute that
bans all public corporations from obtaining P permits
irrespective of domicile. Therefore, we focus on
whether the ban was enacted with a discriminatory
regulating the retailers and wholesalers in a three-tier system.
820 F.3d at 743.

App-43
purpose or has a discriminatory effect on interstate
commerce.
B.
Although the district court correctly cited the
Arlington framework, some of its discriminatory
purpose “findings are infirm.” Veasey, 830 F.3d at 230
(quotation marks omitted). The record does not
support “only one resolution of the factual issue,” as
there is evidence that could support the district court’s
finding of a purpose to discriminate, so we must
remand for a reweighing of the evidence on that issue.
Id.
“The burden of establishing that a challenged
statute has a discriminatory purpose under the
Commerce Clause falls on the party challenging the
provision.” Allstate, 495 F.3d at 160. We consider the
following non-exhaustive factors when determining
whether a state legislature’s actions amount to
purposeful
discrimination
against
interstate
commerce: (1) whether the effect of the state action
creates a clear pattern of discrimination; (2) the
historical background of the action, which may include
any history of discrimination by the decisionmakers;
(3) the “specific sequence of events leading up” to the
challenged state action, including (4) any “departures
from normal procedures[;]”and (5) “the legislative or
administrative history of the state action, including
contemporary statements by decisionmakers.” Id.
Legislators’ awareness of a discriminatory effect “is
not enough: the law must be passed because of” that
discriminatory effect. Veasey, 830 F.3d at 231
(applying the Arlington factors). The challenger must
show that the discriminatory effect was “a substantial

App-44
or motivating factor” leading to the enactment of the
statute. Id. (quotation marks omitted). If the
challenger meets that burden, defendants must
“demonstrate that the law would have been enacted
without this factor.” Id.
First, the district court properly found that Texas
has a clear history of discriminating against out-ofstate alcohol retailers. From the passage of its Liquor
Control Act in 1935, Texas had prohibited out-of-state
individuals and companies from owning package
stores. In Cooper v. McBeath, this court invalidated
Texas
laws
imposing
durational
residency
requirements on alcohol retail store owners. 11 F.3d
547 (5th Cir. 1994) (Cooper I). While Cooper I was
pending, the Texas Legislature enacted House Bill
1445, in an attempt to moot the Cooper I litigation.
The bill repealed the residency requirements at issue
in the case. Texas kept durational residency
requirements for other permits. Soon after the
governor of Texas signed the bill, the Cooper I
plaintiffs moved to dismiss the appeal as moot.
However, this court denied the motion and issued an
opinion striking down the residency requirements,
with language broad enough to apply to all the alcohol
permits. Id. at 550-51, 554. Despite the Cooper I
decision, Texas enforced durational residency
requirements as applied to P permits for another
twelve years—stopping enforcement only after the
practice was permanently enjoined by a federal
district court. S. Wine & Spirits of Texas, Inc. v. Steen,
486 F. Supp. 2d 626, 633 (W.D. Tex. 2007). The
evidence relied on by the district court was “not long

App-45
past history.” Veasey, 830 F.3d at 232. Texas
decisionmakers have a history of discrimination. 9
Addressing a second factor, the district court
erred in finding that the legislative history of § 22.16
includes direct evidence of a purpose to discriminate
against interstate commerce. The district court made
much of the fact that § 22.16 was enacted in 1995, one
year after Cooper I. A lawyer and lobbyist who worked
on behalf of the TPSA drafted the corporation ban. The
TPSA, which had vigorously defended the residency
requirements struck down by this court, later
admitted that there was a fear that “large stores could
disrupt what had been a very stable business climate”
and there could be a “Wal-Martization” of the Texas
package store market. Further, the Texas legislature
was aware that, but for the Cooper I decision, the
TPSA would not have suggested and supported the
public corporation ban.
Based largely on those findings regarding the
conduct and motivations of the TPSA, the district
court concluded that the Texas legislature enacted the
public corporation ban with the same protectionist
motivations. This despite the provision’s drafter
testifying that he told legislators the purpose of the
bill was accountability. He was the only witness at the
committee hearings and told the legislators that the
purpose of the bill was to promote accountability, or
“to have real human beings who are easily
identifiable, who are close to the business, and who
ultimately bear personal responsibility for the actions
9 Walmart also argues that actions taken by the TPSA evidence
a history of discrimination. However, the actions of the TPSA do
not control this inquiry.

App-46
of the package store.” Years later—at trial—he
admitted that he “knew that any bill [enacted] might
be challenged” and that his “assignment was to craft a
bill which . . . would survive a commerce clause
challenge.” The district court determined that the
“TPSA’s chief concern was maintaining the business
climate created by the residency requirement,” and
that
the
legitimate
rationales
concerning
accountability were “pretextual.” However, in Veasey,
we reiterated that overreliance on “post-enactment
testimony” from actual legislators is problematic, and
not “the best indicia of the Texas Legislature’s intent.”
Veasey, 830 F.3d at 234. In light of Veasey, after-thefact statements made by a non-legislator are certainly
not sufficient indicia of legislative intent.
The district court did not find evidence connecting
any Texas legislator to the conclusion that the
accountability rationale was pretextual. The only
comments from a Texas legislator the district court
relied on were made by state Senator Kenneth
Armbrister. When asked to explain the purpose of the
public corporation ban, Armbrister stated that the ban
meant “you can’t have a package store inside a
Walmart” and “Walmart can’t own the package store.”
As the district court noted, during the senate floor
debate on Senate Bill 1063 (which became § 22.16),
Armbrister agreed with state Senator Henderson’s
remark that the Legislature “wanted to have
somebody from Texas with a license that you could get
ahold of . . . to enforce the code.”
However, the district court did not provide the
context of the senators’ statements. Armbrister and
Henderson were engaged in a discussion about the

App-47
motivation for the public corporation ban when
Armbrister stated that the purpose was to have a
better way to “track” package store owners.
Specifically, Armbrister stated, “I think what” both
“the industry . . . and the [TABC] was trying to do is a
better tracking system, because . . . you’ve got largescale corporations that operate . . . it all ties in to(sic)
the operation phase.” Henderson replied by explaining
that a corporation could own a package store by
obtaining the permit through a local licensee
(presumably
because
Texas
previously
had
enforceable
durational-residency
requirements),
referring to the mechanism employed by corporations
as a “fake-a-roo.” Next, Armbrister attempted to
explain some exemptions to the ban when Henderson
replied that the “fake-a-roo” was used because the
legislators previously wanted only people from Texas
to hold P permits “to enforce the code.”
Significantly, Henderson asked Armbrister, “It’s
not the bill . . . that keeps foreign ownership from
coming in and . . . getting licenses, that kind of thing?”
(emphasis added). To which Armbrister answered,
“No. Those . . . both those bills are still pending in
committee.” Henderson replied, “Good. Thank you.”
Near the close of the floor debate, the Texas Senate
voted to pass the bill. The floor debate was devoid of
discriminatory remarks directed toward out-of-state
competition generally. The transcript reveals that
there were entirely separate bills being advanced to
address foreign owners. Moreover, the “Explanations
and Arguments” in support of Senate Bill 1063
indicate that the reason for the ban was to ensure that
owners were known to the community and “could be
held accountable for responsible operation.” The

App-48
document further states, “Courts have recently struck
down . . . Texas resident law saying that it penalized
out of state citizens” but there remained a need to
have a human who is easily identifiable and
responsible for the actions of a given package store
business. The legislative history is merely “evidence of
a legislative desire to treat differently two business
forms . . . a distinction based not on domicile but on
business form.” Allstate, 495 F.3d at 161.
There is no direct evidence of a discriminatory
purpose in the legislative history; Plaintiffs rely on
circumstantial evidence. The motivations and
lobbying efforts of the TPSA are not direct evidence of
legislative purpose. An admission that the drafter
sought to create a law that would survive a
constitutional challenge is not evidence of a
discriminatory legislative purpose. There are no
“stray protectionist remarks” in the legislative
history, and even if there were, such remarks “are
insufficient
to
condemn”
an
otherwise
nondiscriminatory statute. Id.
Turning to a third factor, the district court failed
to apply the “presumption of legislative good faith” in
finding that the sequence of events that led to the
enactment of § 22.16 evidences a discriminatory
purpose. Perez, 138 S. Ct. at 2324. In line with the
district court, Walmart relies on the Texas
Legislature’s failed attempt to moot Cooper I during
the 1993 session and the Legislature’s enactment of
the public corporation ban during the 1995 session.
The TABC argues that it is irrelevant that the
corporation ban was enacted in response to Cooper I.
TPSA argues that the district court’s conclusion based

App-49
in part on post-Cooper I conduct is inconsistent with
controlling case law.
In Perez, the Supreme Court made it clear that
“[t]he allocation of the burden of proof and the
presumption of legislative good faith are not changed
by a finding of past discrimination.” Id. at 2324. Past
discrimination is merely one potential evidentiary
source. Id. The district court specifically found that “if
not for the Fifth Circuit striking down Texas’s
residency requirement, TPSA would not have
proposed, and the Legislature would not have enacted,
the ban on public corporations holding package store
permits.”
While that finding might be true, there are
problems with concluding those events evidence a
purpose to discriminate. As stated previously, the
TPSA’s motivations and actions are not sufficient
indicia of legislative intent. As a result, the only
remaining evidence is the Texas Legislature’s actions
in support of a discriminatory purpose during Cooper
I. The district court flipped “the evidentiary burden on
its head” based only on the recent history of
discrimination. Id. at 2325. More than requiring
Walmart to present specific events evidencing a
discriminatory purpose connected to the public
corporation ban, the district court placed the burden
on appellants to provide evidence that the Texas
Legislature had a true “change of heart” with respect
to the residency requirements while enacting a ban
that affects public corporations irrespective of
location. Id. at 2326.
The burden flip was especially problematic
because the district court’s findings arguably indicate

App-50
that the Legislature sought to comply with the
demands of the dormant Commerce Clause. The
district court noted that Texas did not stop enforcing
durational residency requirements as applied to
package store owners until 2007, more than twelve
years after § 22.16 was enacted. This also meant that
the public corporation ban was enforced against Texas
corporations while Texans still believed it was proper
to deny would-be package store owners from outside
the state. As far as the record reveals, Texas
corporations were the only companies affected by the
public corporation ban for at least a decade after it was
enacted. 10 In any event, the district court committed
clear error by failing to apply a presumption of good
faith to the enactment of the public corporation ban.
The previously noted errors are further
compounded because the district court misapplied the
first Arlington factor. The first factor asks whether “a
clear pattern of discrimination emerges from the effect
of the state action.” Allstate, 495 F.3d at 160. The
district court found that the corporation ban had the
“effect of barring nearly all out-of-state companies
with the scale and capabilities necessary to serve the
Texas retail liquor market.” That finding does not
answer the relevant question. For this dormant
Commerce Clause inquiry, the question is: Does the
The public corporation ban does have a “grandfather clause”
that exempts corporations that held a P permit before the day the
statute was enacted. Tex. Alco. Bev. Code. § 22.16(f). Because
Texas enforced durational residency requirements for package
store owners until 2007, the exempted corporations are Texasbased firms. This clause arguably provides some evidence of an
effort by the Legislature to benefit in-state corporations, which
the court can consider along with other evidence in this case.
10

App-51
legislative action affect Walmart based on its status as
an out-of-state public corporation? See Allstate, 495
F.3d at 160-61. This error highlights a general flaw
throughout the district court’s findings.
The evidence indicates that the Legislature
intended to ban public corporations from obtaining P
permits after the state lost its ability to enforce the
durational residency requirements for other permits.
Based on the optics, the district court made several
assertions without considering a critical point: Under
the law of the Fifth Circuit, evidence that legislators
intended to ban potential permittees based on
company form alone is insufficient to meet the purpose
element of a dormant Commerce Clause claim. See
Allstate, 495 F.3d at 161-62 (rejecting Allstate’s
discriminatory purpose argument because the
evidence indicated only a desire to treat business
forms differently, without regard to location); Ford
Motor Co. v. Texas Dep’t of Transp., 264 F.3d 493, 50001 (5th Cir. 2001) (rejecting discriminatory purpose
argument because “the legislative history indicate[d]
the legislature’s intent to prevent manufacturers from
utilizing their superior market position to compete
against dealers in the retail car market”); see also
Exxon Corp. v. Maryland, 437 U.S. 117, 125 (1978)
(rejecting claims of disparate treatment because the
statute did “not discriminate against interstate goods”
or favor local companies over interstate companies).
Section 22.16 bans public corporations from obtaining
P permits irrespective of location. The ban’s effect on
all public corporations provides strong evidence that

App-52
the Legislature did not purposefully discriminate
against out-of-state corporations. 11
While the district court committed several errors
in finding that the Legislature adopted the public
corporation ban with a purpose to discriminate
against interest commerce, the record also contains
circumstantial evidence that could support such a
finding. As acknowledged, Texas has a history of
discriminating against out-of-state alcohol retailers.
That history has significant “probative value in
connection” with the discriminatory purpose inquiry.
Veasey, 830 F.3d at 232. However, affirming the
district court’s finding of a purpose to discriminate
based on the history alone would create an odd result.
States should be able to respond to a court deeming
one of its laws unconstitutional. In addition, the
present inquiry is further complicated because Texas
enforced durational residency requirements against
would be P permit holders for years after the public
corporation ban was enacted. In this context,
overreliance on the history alone would be a mistake.
In line with Veasey, 12 and the Supreme Court’s
analysis in Perez, the history of discrimination should
The application of the first Arlington factor underscores why
it is debatable whether the factors should be applied in the
dormant Commerce Clause context. Under Allstate, Ford, and
Exxon, a statute can create an obvious and significant barrier
against out-of-state economic actors and, nevertheless, not
evidence a discriminatory purpose. Good drafting can render the
first Arlington factor hollow.
11

12 830 F.3d at 232 (noting that “relatively contemporary
examples of discrimination identified by the district court are
limited in their probative value in connection with discerning the
Texas Legislature’s intent”).

App-53
be weighed “with any other direct and circumstantial
evidence of th[e] Legislature’s intent.” Perez, 138 S. Ct.
at 2327.
The district court committed errors in its findings
with respect to the other Arlington factors. The
appropriate action is to remand the discriminatory
purpose issue for reconsideration in light of this
opinion. See Veasey, 830 F.3d at 235 (explaining that
discriminatory intent is a factual matter that, when
set aside for an error of law, should be remanded for
further proceedings).
C.
Moving on in the dormant Commerce Clause
analysis, the district court found that the public
corporation ban does not have a discriminatory
effect. 13 The district court reached that determination
by following Allstate, 14 Ford, 15 and Exxon. 16 Exxon is
the controlling dormant Commerce Clause case for
considering a facially neutral statute that bans
The district court also acknowledged its “odd” result, finding
the public corporation ban has a discriminatory purpose but not
a discriminatory effect. As stated in Section III.B of this opinion,
that result was partially attributable to the district court’s
misapplication of the first Arlington factor. However, it also
highlights the logical inconsistency that might result from
applying the Arlington factors in a dormant Commerce Clause
case.
13

14
495 F.3d 162-63 (relying
discriminatory effect argument).

on

Exxon

and rejecting

15 264 F.3d at 500-02 (relying on Exxon and rejecting
discriminatory effect argument).
16 437 U.S. at 125-26 (rejecting argument that statute had a
discriminatory effect).

App-54
particular companies from a retail market. In Exxon,
oil companies brought a dormant Commerce Clause
challenge to invalidate a Maryland statute prohibiting
producers and refiners of petroleum products from
operating retail service stations in the state. The oil
companies argued that the statute had the effect of
protecting in-state independent dealers from out-ofstate competition. Exxon, 437 U.S. at 125. The
plaintiffs relied on the fact that the burden of the
prohibition fell solely on interstate companies. Id.
The Supreme Court rejected the argument and
explained that because “the burden of [a] state
regulation falls on some interstate companies does
not, by itself, establish a claim of discrimination
against interstate commerce.” Id. at 126. The Court’s
reasoning was based on the following factors: (1) The
prohibition did not restrict interstate dealers in the
retail market; (2) did not restrict the flow of interstate
goods; (3) did not place added costs on interstate
goods; and (4) did not distinguish between in-state and
out-of-state retailers in the market. Id. The Court
declared that the absence of those factors
“distinguishe[d] th[e] case from those in which a State
has been found to have discriminated against
interstate commerce.” Id. A burden on some interstate
companies is not a violation if “in-state [retailers] will
have no competitive advantage over out-of-state
[retailers].” Id.
In Ford, this court considered Exxon and rejected
the plaintiff’s discriminatory effect argument. The
case involved a Texas statute that banned automobile
manufacturers from obtaining a license to become car
dealers in the state. This court explained that a

App-55
statute should be examined by “its effect on similarly
situated business entities.” Ford, 264 F.3d at 501.
Ford had failed to show that the Texas statute in
question “discriminate[d] according to the extent of a
business entity’s contacts with the State. . . . [B]ut
rather [showed discrimination] on the basis of Ford’s
status as an automobile manufacturer.” Id. at 502. It
was irrelevant whether Ford is domiciled in Texas or
Michigan. Id. Either way, Ford was proscribed from
entering the Texas automobile retail market. The
statute, however, did not discriminate against
independent automobile dealers seeking to enter the
Texas market. Id. Even if the statute “prevent[ed]
manufacturers from utilizing their superior market
position to compete against dealers in the retail car
market[,]” the statute did not have a discriminatory
effect on interstate commerce. Id. at 500. A statute can
have a discriminatory effect if it provides a
“competitive advantage to in-state interests vis-à-vis
similarly situated out-of-state interests.” Id. at 501
(emphasis added).
Allstate is the most recent of the controlling
cases. 17 Allstate, which controlled approximately 15%
In Churchill Downs Inc. v. Trout, this court acknowledged
that, “[i]n cases where the challenged statutes are facially
neutral, the Supreme Court has evinced a reluctance to take an
expansive view of the concept of ‘discriminatory effects.’” 589 F.
App’x 233, 236 (5th Cir. 2014). This court noted that the Court
reached the conclusion in Exxon by using a narrow definition of
“substantially similarly entities.” Id. The Court has been mostly
reluctant to find that a facially neutral statute has a
discriminatory effect. See id. (discussing Minnesota v. Clover Leaf
Creamery Co., 449 U.S. 456, 458 (1981), in which the court upheld
a facially-neutral statute); id. at n.7 (citing Erwin Chemerinsky,
Constitutional Law 447 (4th ed. 2011) (citing Clover Leaf as an
17

App-56
of the automobile insurance market in Texas, initiated
a plan to enter the auto body repair business by
acquiring Sterling Collision Centers, Inc. (“Sterling”).
Sterling was a multi-state chain of repair shops,
including 15 shops in Texas. 495 F.3d at 155. Allstate
believed it could minimize expenses for unnecessary
or overpriced repairs, and eventually started
funneling repair opportunities to Sterling instead of
other local repair shops. Id. Texas later passed a bill
that barred insurers from acquiring an interest in
auto body shops. 18 Id. at 156. Allstate later filed suit,
arguing in part that the bill violated the dormant
Commerce Clause. Allstate chiefly argued that the bill
was part of a coordinated political effort to hurt its
Sterling venture and to maintain the market
dominance of local Texas body shops. Id. The district
court rejected the claim. Id. at 157.
On appeal, the plaintiffs argued that the bill had
a discriminatory effect because it favored in-state
companies and would shift some services from out-ofstate providers to in-state providers. 495 F.3d at 162.
Relying principally on Exxon, this court rejected the
discriminatory effect argument, stating that “[a]
statute impermissibly discriminates only when it
discriminates between similarly situated in-state and
out-of-state interests.” Id. at 163.
In the present case, the public corporation ban
treats in-state and out-of-state public corporations the
additional example of a case where “discriminatory impact” did
not invalidate a facially neutral statute)).
18 The bill also included a grandfather clause that exempted
facilities already open for business at the time. Allstate, 495 F.3d
at 157 n.6.

App-57
same. Neither in-state nor out-of-state public
corporations may obtain a P permit or own a package
store. There are “no barriers whatsoever to out-ofstate” companies obtaining P permits so long as they
are not a public corporation as defined by the statute.
Allstate, 495 F.3d at 163. Further, § 22.16 does not
“prohibit the flow of interstate [liquor retail products],
place additional costs upon [out-of-state retailers], or
distinguish between in-state and out-of-state
companies in the retail market.” Id. (quotation marks
omitted). “[T]he absence of any of these factors fully
distinguishes this case from those in which a State has
been found to have discriminated against interstate
commerce.” Id. (quotation marks omitted). As the
district court noted, Texas-based public corporations
are prohibited from selling liquor in the state.
Meanwhile, several companies owned by out-of-state
residents have entered the Texas liquor retail market,
including one of the ten largest liquor retailers in the
state. 19 Despite the fact that the public corporation
ban undoubtedly blocks some economic actors from
entering the Texas liquor retail market, 20 we agree
with the district court that the ban does not have a
discriminatory effect on interstate commerce. 21
Fine Wines & Spirits of North Texas, LLC is owned by a
Maryland resident.
19

See Ford, 264 F.3d at 512 (Jones, J., concurring) (concurring
because Exxon is controlling but noting the barrier to retail
competition from out-of-state).
20

21 There is a tension, however, between the Court’s analysis in
Exxon and dicta from its recent opinion in Tennessee Wine. 139
S. Ct. 2449. The case involved a set of Tennessee laws that placed
durational-residency requirements on those seeking to obtain or
renew a license to operate a liquor store in the state. Id. at 2456.

App-58
Because the district court committed clear error
in finding that § 22.16 was enacted with a purpose to
discriminate against interstate commerce, and given
that we have concluded that the facially neutral ban
does not have a discriminatory effect, we must remand

One of the provisions provided that a corporation could not obtain
a license to operate a liquor store unless all its stockholders are
residents of Tennessee. Id. at 2457. The Sixth Circuit had
previously found that provision facially discriminatory and
affirmed that it violated the dormant Commerce Clause. Byrd v.
Tennessee Wine & Spirits Retailers Ass’n, 883 F.3d 608, 626, 628
(6th Cir.), cert. granted, 139 S. Ct. 52 (2018), and aff’d sub nom.
Tennessee Wine, 139 S. Ct. 2449. The provision was not at issue
in Tennessee Wine, but the majority commented on its
discriminatory nature and its practical effect. The Court referred
to the 100-percent-resident shareholder requirement as a
“blatant” violation of the Commerce Clause. Id. at 2457. The
Court also noted that the practical effect of the provision was that
“no corporation whose stock is publicly traded may operate a
liquor store in the State.” Id. But the Court did not say more on
that point. Concluding the opinion, the majority added that “the
predominant effect” of the 100-percent-resident shareholder
provision was to protect members of the Tennessee Wine and
Spirits Retailers Association from out-of-state competition. Id. at
2476. The dicta in that opinion leaves many questions to be
answered. Was the predominant effect of the provision
protectionism because it was facially discriminatory or because
of its practical effect? The Tennessee laws were all facially
discriminatory, so the Court never conducted a discriminatory
effect analysis. As this court has previously noted, “jurisprudence
in the area of the dormant Commerce Clause is, quite simply, a
mess.” Churchill Downs, 589 F. App’x at 235. Because of the
ambiguity in the dicta from Tennessee Wine, we decline to
conclude that the Court meant to alter the discriminatory effect
analysis when specifically considering a general public
corporation ban. Exxon remains the controlling Supreme Court
precedent.

App-59
this case for reconsideration of whether the ban was
enacted with a discriminatory purpose.
D.
The district court analyzed another means by
which it concluded could invalidate a statute under
the dormant Commerce Clause even if the statute did
not discriminate facially, in purpose or in effect. The
district court concluded that “a law that does not
directly discriminate against interstate commerce”
can still violate the dormant Commerce Clause if it
imposes a burden on interstate commerce that is
“clearly excessive” in relation to the “putative local
benefits.” Pike v. Bruce Church, Inc., 397 U.S. 137, 142
(1970)). The district court determined that § 22.16
violates the dormant Commerce Clause under the Pike
test. We conclude that the district court erred in its
analysis. A court should consider: (1) whether the law
burdens interstate commerce; 22 (2) whether there is a
“legitimate local interest” in the law; 23 and (3) when
both are present, if the extent of the burden should be
tolerated based on the local interest involved,
including if the interest “could be promoted as well
with a lesser impact on interstate activities.” 24 The
inquiry is known as the Pike balancing test. Churchill
Downs, 589 F. App’x at 237. When applying the Pike
test in this context, “[a] statute imposes a burden
when it inhibits the flow of goods interstate.” Allstate,
495 F.3d at 163. Having already held that the public
corporation ban was enacted with a purpose to
22

Pike, 397 U.S. at 142.

23

Id.

24

Id. (emphasis added).

App-60
discriminate, the district court further concluded that
“the burden imposed on [interstate] commerce” by the
public corporation ban “is clearly excessive in relation
to the putative local benefits.” Pike, 397 U.S. at 142.
Appellants argue that the Pike test does not apply
to a nondiscriminatory regulation of alcohol beverage
retailing under the Twenty-first Amendment. 25
Walmart contends that the controlling case law is
clear that Pike can be applied to alcohol-related laws
despite the Twenty-first Amendment.
The Supreme Court has not considered the issue.
Further, none of our sister circuits have struck down
a state regulation of liquor under Pike while also
concluding that the Twenty-first Amendment applied.
See Lebamoff Enterprises, Inc. v. Huskey, 666 F.3d
455, 467 (7th Cir. 2012) (Hamilton, J., concurring)
(“What we do not find is a case applying Pike
balancing and holding that a non-discriminatory state
alcohol law flunks.”). Compare Baude v. Heath, 538
F.3d 608 (7th Cir. 2008) (striking down statute that
was discriminatory in effect while citing Pike without
addressing the Twenty-first Amendment) with
Lebamoff, 666 F.3d at 468 (Hamilton, J., concurring)
(“The Baude opinion does not, however, provide a
persuasive basis for applying Pike balancing to
nondiscriminatory state alcohol laws.”). Application of
Pike in the face of § 2 of the Twenty-first Amendment
is questionable in light of the Court’s recent
declaration that states “remai[n] free to pursue”
25 The TPSA asserts that Walmart failed to litigate Pike in the
district court. However, Pike was either cited or raised by the
parties numerous times during the district court proceedings.
Walmart did not waive the Pike issue.

App-61
legitimate interests aimed at regulating the ill-effects
and risks associated with the alcohol trade. Tennessee
Wine, 139 S. Ct. at 2472 (alteration in original)
(quotation marks omitted). 26
However, in Tennessee Wine, the Court
“reiterate[d] that the Commerce Clause by its own
force restricts state protectionism.” 139 S. Ct. at 2461
(emphasis added). While that is an ambiguous
statement from a case involving a facially
discriminatory provision, it is a signal that we need
not get ahead of the Court by concluding that Pike
balancing cannot be applied to a facially neutral
regulation of alcohol retailing. 27 So we proceed with
the test.
This is also true in light of the Court’s acknowledgement that
three-tier systems for the control and distribution of alcohol are
“unquestionably legitimate.” Granholm, 544 U.S. at 488-89
(quotation marks omitted). Various nondiscriminatory laws
passed under three-tier systems place at least some burden on
interstate commerce. Pike balancing might be decisive in many
cases. See Lebamoff, 666 F.3d at 469 (Hamilton, J., concurring).
Granting courts the power to substitute a legislature’s policy
considerations with its own when considering nondiscriminatory
alcohol-related laws seems to be in direct tension with state
power granted by § 2. Such tension lends support for Justice
Scalia’s contention that the Pike “inquiry is ill suited to the
judicial function and should be undertaken rarely if at all.” CTS
Corp. v. Dynamics Corp. of Am., 481 U.S. 69, 95 (1987)
(concurring).
26

27 The Court has cited Pike in dormant Commerce Clause cases
involving alcohol-related laws. See Brown-Forman Distillers
Corp. v. New York State Liquor Auth., 476 U.S. 573, 579 (1986)
(evaluating the constitutionality of state’s lowest-price
affirmation provision of alcohol control law); Bacchus Imports,
Ltd. v. Dias, 468 U.S. 263, 270 (1984) (considering the
constitutionality of a liquor excise tax). In the absence of

App-62
The district court determined that the public
corporation ban places a substantial burden on
interstate commerce because it protects package
stores owned by Texas residents from out-of-state
market entrants. The district court relied on evidence
that 98% of the package stores in Texas are owned by
instate residents. Additionally, Walmart provided
evidence that numerous out-of-state companies could
enter the Texas liquor retail market if the ban was not
in place. Appellants argued that the ban places an
equal burden on instate companies, presenting
evidence that the number of publicly traded
companies domiciled in Texas that are barred by the
ban is roughly proportional to Texas’ share of the
national population and national economy. The
district court rejected appellants’ evidence and
declared that “assessing disparate impact requires the
Court to measure the effect the public corporation ban
has on the in-state and out-of-state companies that
would otherwise serve the market if not for the ban.”
There is no authority which supports that conclusion.
The district court’s analysis overlooks the
controlling precedent. In Exxon, the Court instructed
that the Commerce “Clause protects the interstate
market, not particular interstate firms from
prohibitive or burdensome regulations.” Exxon, 437
U.S. at 127-28 (emphases added). When in-state firms
have no competitive advantage over out-of-state firms,
interstate commerce is not “subjected to an
impermissible burden” because some potential
participants are shifted out of the in-state market. Id.
controlling authority, we will not exempt an entire category of
laws from the Pike test.

App-63
at 127. 28 State laws are upheld when “similarly
situated in-state and out-of-state companies are
treated identically.” Allstate, 495 F.3d at 163 (citing
Exxon, 437 U.S. at 126). Indeed, Section 22.16
prohibits all public corporations, regardless of in-state
or out-of-state status, from holding P permits. TEX.
ALCO. BEV. CODE§ 22.16(a)-(b). In Allstate, this
court rejected the assertion that there was a
substantial burden on interstate commerce, in part
because the Texas law in question did not prohibit
interstate economic actors from entering the in-state
market. Allstate, 495 F.3d at 164 (rejecting assertion
that a company’s inability to expand imposes a burden
on interstate commerce). It is clear that “[t]he
Supreme Court has ‘rejected the notion that the
Commerce Clause protects the particular structure or
methods of operation in a . . . market.’” Id. at 163-64
(quoting CTS Corp., 481 U.S. at 93-94). Similar to
Allstate, appellants in the present case have provided
evidence that several package stores in Texas are
owned and operated by out-of-state residents, such as
Total Wine & More. See id. (finding the same).
Walmart incorrectly asserts that Lewis v. BT Inv. Managers,
Inc., informs the Pike inquiry in this case. 447 U.S. 27 (1980). The
Court made it clear that the prohibition in that case
discriminated among similarly situated business entities
according to their contact with the local state economy. See id. at
42 (“It follows that [the statue] discriminates among affected
business entities according to the extent of their contacts with
the local economy. The absence of a similar discrimination
between interstate and local producer-refiners was a most critical
factor in Exxon.”) (emphasis in original). The Court determined
that the statute had a discriminatory effect but concluded that it
failed the Pike test. Id. Again, Exxon, Ford, and Allstate are
controlling in this case.
28

App-64
The district court should have considered
evidence addressing whether the public corporation
ban prohibited the flow of interstate goods to the
Texas liquor retail market, placed barriers and
additional costs against interstate dealers, or
distinguished between in-state and out-of-state
companies in the market. See id. at 162-163 (“A
statute imposes a burden when it inhibits the flow of
goods interstate.”); Ford, 264 F.3d at 503 (finding the
plaintiff “failed to demonstrate that [the statute] will
burden commerce by inhibiting the flow of interstate
goods”); see also Exxon, 437 U.S. at 126 n.16 (“If the
effect of a state regulation is to cause local goods to
constitute a larger share, and goods with an out-ofstate source to constitute a smaller share, of the total
sales in the market . . . the regulation may have a
discriminatory effect on interstate commerce.”). The
record is devoid of such evidence.
The district court and Wal-Mart misplaced their
reliance on the statistic that nearly 2% of out-of-state
firms and 98% of in-state firms participate in the
Texas retail liquor market. “[T]hat no Texas [firm] is
affected by the new regulation is of no consequence.”
Allstate, 495 F.3d at 163; see also Int’l Truck and
Engine Corp. v. Bray, 372 F.3d 717, 726 (5th Cir.2004)
(“That all or most affected businesses are located outof-state does not tend to prove that a statute is
discriminatory.”). Regarding potential entrants, while
Texas’ ban inhibits Wal-Mart’s and other public
corporations’ ability to expand their retail liquor
market in the state, the law does not prohibit other
interstate non-public corporations or non-resident,
non-public corporations from operating in or entering
the Texas market. Wal-Mart has failed to demonstrate

App-65
impermissible discrimination “between similarly
situated in-state and out-of-state interests.” Allstate,
495 F.3d at 163. Similarly, Wal-Mart has failed to
show how even a minimal burden on interstate
commerce would be clearly excessive as compared to
the putative local benefits. In assessing a statute’s
putative local benefits, we “are not inclined to secondguess the empirical judgments of lawmakers
concerning the utility of legislation.” CTS Corp., 481
U.S. at 92 (internal citation and quotation omitted).
Rather, we credit a putative local benefit “so long as
an examination of the evidence before or available to
the lawmaker indicates that the regulation is not
wholly irrational in light of its purposes.” Kassel v.
Consol. Freightways Corp. of Delaware, 450 U.S. 662,
681 (1981).
When plaintiffs, such as Wal-Mart, have had a
“fair opportunity to prove their claim and they failed
to do so,” an appellate court may “discern no reason to
give the plaintiffs a second chance to make out [the]
case.” See Weisgram v. Marley Co., 528 U.S. 440, 444
(2000) (internal citation and quotation omitted). “[W]e
must consider the law of this circuit at the time of [the]
trial to determine whether fairness requires affording
Wal-Mart the opportunity to present new evidence.”
Deffenbaugh-Williams v. Wal-Mart Stores, Inc., 188
F.3d 278, 282 (5th Cir. 1999). It is clear that the
Commerce Clause does not protect against the
discriminatory effects on a “particular structure or
methods of operation in a . . . market” but rather it
protects against “discrimination between similarly
situated in-state and out-of-state interests.” See
Exxon, 437 U.S. at 127; Allstate, 495 F.3d at 163. That
was the law at the time of the trial. Accordingly,

App-66
rather than remand this issue, we render judgment in
Defendants’ favor.
Therefore, we vacate the district court’s judgment
that the public corporation ban violates the dormant
Commerce Clause. Remand is warranted for
reconsideration of whether the ban was enacted with
a discriminatory purpose. However, we render
judgment in favor of Defendants on the claim that an
impermissible burden exists under Pike.
E.
The district court also determined that the public
corporation ban does not violate the Equal Protection
Clause because the ban is rationally related to the
state’s legitimate purpose of reducing the availability
and consumption of liquor throughout Texas. Walmart
argues that (1) heightened scrutiny should apply to
the ban because the law imposes an “absolute
deprivation” of a benefit due to the applicant’s
supposed wealth; and (2) the ban has the hallmarks of
“animus” against public corporations. Walmart adds
that the ban is also irrational. Appellants argue that
the public corporation ban is an economic regulation
that is not subject to heightened review and clearly
survives rational basis review. We agree with the
latter.
Under the Equal Protection Clause of the
Fourteenth Amendment, “[n]o State shall . . . deny to
any person within its jurisdiction the equal protection
of the laws.” U.S. Const. amend. XIV, § 1. Walmart
has failed to provide support for its assertion that a
general ban on public corporations warrants

App-67
heightened scrutiny. 29 Walmart is not a member of a
protected class and the public corporation ban does not
infringe upon a fundamental right. Therefore, we
apply a rational basis review. Hines v. Alldredge, 783
F.3d 197, 202-03 (5th Cir. 2015). “Under this
standard, a legislative classification ‘must be upheld
against equal protection challenge if there is any
reasonably conceivable state of facts that could
provide a rational basis for the classification.’” Glass
v. Paxton, 900 F.3d 233, 244-45 (5th Cir. 2018)
(quoting FCC v. Beach Commc’ns, Inc., 508 U.S. 307,
313 (1993)). The parties challenging the “presumption
of validity” granted to legislative classifications must
negate every conceivable basis which might support
the legislation. Id. at 245.
Rational basis review is fact intensive. The review
“places no affirmative evidentiary burden on the
government, [but] plaintiffs may nonetheless negate a
seemingly plausible basis for the law by adducing
evidence of irrationality.” St. Joseph Abbey v. Castille,
712 F.3d 215, 223 (5th Cir. 2013). While a
“hypothetical rationale” is acceptable, it “cannot be
fantasy.” Id. The government action “must rationally
Walmart’s contention, that the ban was enacted with animus
toward public corporations generally and animus toward
Walmart specifically, may be true. However, Walmart has failed
to provide a single case indicating that heightened scrutiny
should be applied to such an Equal Protection Claim. Walmart
cites Bishop v. Smith. 760 F.3d 1070, 1099-1100 (10th Cir. 2014)
(Holmes, J., concurring). However, Bishop did not involve an
application of heightened scrutiny based on animus toward
corporations. Walmart has also failed to provide support for its
contention that a corporation’s perceived wealth warrants
inclusion in a protected class.
29

App-68
relate to the state interests it articulates.” Id. “[W]e
will examine the State[’s] rationale informed by the
setting and history of the challenged rule.” Id.
The district court determined that the public
corporation ban is conceivably related to Texas’
legitimate purpose to reduce the availability and
consumption of liquor. On appeal, Walmart contends
that
this
conclusion
was
made
up
of
“hypothetical . . . lawful links.” Walmart adds that
allowing the ban would “justify banning any group the
Legislature might conceivably believe would be more
successful at retail” and the hypothetical is “contrary
to basic economic truth.” Walmart’s pleas are
unavailing.
Walmart does not dispute that Texas has a
legitimate interest in regulating the consumption of
liquor and limiting the effects of liquor-related
externalities. The state could believe that excluding
public corporations reduces both the total number of
package store firms and overall liquor consumption,
driving up prices. Relatedly, it is more than
reasonable to assume that the state believed that
public corporations have the capital and scale to offer
liquor well below current prices. In fact, that
assumption was included in Walmart’s argument that
the public corporation ban keeps liquor prices
“artificially high” and forces consumers to pay “noncompetitive prices.” Walmart’s own arguments
support the district court’s conclusion. Walmart has
not negated the theory that excluding public
corporations from the liquor retail market increases
prices. We conclude that there is a rational basis for
Texas’ decision to ban all public corporations from

App-69
obtaining P permits. The public corporation ban does
not violate the Equal Protection Clause.
F.
While this appeal was pending, the governor of
Texas signed into law House Bill 1545. Section 82 of
the bill raises the five P permit limit created by Tex.
Alco. Bev. Code § 22.04, to 250 P permits. A permittee
may obtain up to 15 original P permits each year, and
an unlimited number of permits purchased from
already-existing stores. Section 85 of the bill repeals
Tex. Alco. Bev. Code § 22.05, the consanguinity
exception to the five-permit limit. The bill took effect
on September 1, 2019. Tex. H.B. 1545, §§ 82, 84.
Walmart now seeks to withdraw its challenges to
§§ 22.04 and 22.05, and has requested that we vacate
the district court’s judgment in its favor with respect
to those challenges. The parties agree that we should
vacate the district court’s judgment in Walmart’s favor
with respect to those challenges. 30 Accordingly, we do
not address Walmart’s challenges to §§ 22.04 and
22.05. The challenges are withdrawn. Remand is
warranted in this case, and we leave for the district
court to consider in the first instance whether the
judgment in favor of Walmart with respect to §§ 22.04
and 22.05 should be vacated.

30 Walmart did not file a motion but made its request in a
Federal Rule of Appellate Procedure 28(j) letter submitted to this
court on June 17, 2019. On June 19, 2019, the TPSA submitted a
response to the 28(j) letter agreeing with Walmart. The TABC
submitted a response on June 20, 2019, agreeing that the district
court’s judgment should be vacated.

App-70
IV. Conclusion
For the reasons stated above, the district court’s
judgment enjoining enforcement of § 22.16 is
VACATED. The district court’s judgment that § 22.16
does not violate the Equal Protection Clause is
AFFIRMED. The district court’s judgment that
§ 22.16 offends the dormant Commerce Clause is
VACATED. We REMAND for the district court to
reconsider this claim in light of the guidance we have
provided in this opinion on the “discriminatory
purpose” test under the dormant Commerce Clause.
We RENDER judgement in favor of Defendants on the
Pike test under the dormant Commerce Clause.

App-71
Appendix C
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
________________
No. 18-50299
________________
WAL-MART STORES, INC.; WAL-MART STORES TEXAS,
L.L.C.; SAM’S EAST, INC.; QUALITY LICENSING CORP.,
v.

Plaintiffs-Appellees
Cross-Appellants,

TEXAS ALCOHOLIC BEVERAGE COMMISSION; KEVIN
LILLY, Presiding Officer of the Texas Alcoholic
Beverage Commission; IDA CLEMENT STEEN,
Defendants-Appellants
Cross-Appellees,
TEXAS PACKAGE STORES ASSOCIATION, INC.,
Movant-Appellant
Cross-Appellee.
________________
Filed: Jan. 7, 2020
________________
Before: DAVIS, HAYNES, and GRAVES,
Circuit Judges
________________
ON PETITION FOR REHEARING EN BANC
________________
ORDER
________________

App-72
PER CURIAM:
() Treating the Petition for Rehearing En Banc as a
Petition for Panel Rehearing, the Petition for
Panel Rehearing is DENIED. No member of the
panel nor judge in regular active service of the
court having requested that the court be polled on
Rehearing En Banc (Fed. R. App. P. and 5th Cir.
R. 35), the Petition for Rehearing En Banc is
DENIED. *
()

Treating the Petition for Rehearing En Banc as a
Petition for Panel Rehearing, the Petition for
Panel Rehearing is DENIED. The court having
been polled at the request of one of the members
of the court and a majority of the judges who are
in regular active service and not disqualified not
having voted in favor (Fed. R. App. P. and 5th Cir.
R. 35), the Petition for Rehearing En Banc is
Denied.
ENTERED
COURT:

FOR

THE

/s/ James E. Graves, Jr.
United States Circuit Judge

* Judges Jerry E. Smith, Don R. Willett, James C. Ho, did not
participate in the consideration of the rehearing en banc.

App-73
Appendix D
UNITED STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF TEXAS
________________
No. 1:15-cv-134-RP
________________
WAL-MART STORES, INC.; WAL-MART STORES TEXAS,
L.L.C.; SAM’S EAST, INC.; QUALITY LICENSING CORP.,
v.

Plaintiffs,

TEXAS ALCOHOLIC BEVERAGE COMMISSION;
JOSE CUEVAS, JR.; STEVEN M. WEINBERG;
IDA CLEMENT STEEN,
Defendants,
TEXAS PACKAGE STORES ASSOCIATION, INC.,
Intervenor.
________________
Filed: Mar. 20, 2018
________________
ORDER
________________
1. Wal-Mart Stores, Inc. and three of its
subsidiaries (collectively, “Wal-Mart”) bring suit
against the Texas Alcoholic Beverage Commission and
three of its commissioners (collectively, “TABC”). WalMart raises a constitutional challenge to four Texas
statutes, Tex. Alco. Bev. Code §§ 22.04, 22.05, 22.06,
22.16, governing the issuance of package store
permits, which allow the retail sale of liquor in the

App-74
state. Generally, the statutes prohibit public
corporations, including Wal-Mart, from obtaining any
package store permits, and prohibit other companies
with diffuse ownership from obtaining more than five
package store permits. Wal-Mart asserts claims
against TABC pursuant to 42 U.S.C. § 1983 for
violations of the dormant Commerce Clause, U.S.
Const. art. I, § 8, cl. 3, and the Equal Protection
Clause, U.S. Const. amend XIV, § 1. It seeks a
declaration that the statutes are unconstitutional and
a permanent injunction against their enforcement.
2. The Texas Package Store Association (“TPSA”)
was allowed to intervene as a matter of right to defend
the statutes. See Wal-Mart Stores, Inc. v. Tex.
Alcoholic Beverage Comm’n, 834 F.3d 562 (5th Cir.
2016).
3. On June 5-9, 2017, the Court held a bench trial.
In light of the entire evidentiary record, the Court now
issues the following findings of fact and conclusions of
law. 1
FINDINGS OF FACT
I.

The Parties

4. Wal-Mart is a retailer that operates
approximately 5,000 stores in the United States. WalMart currently sells beer or wine in forty-seven states,
and liquor in thirty-one states. Wal-Mart currently
sells beer and wine in Texas at 668 locations.

1 All findings of fact contained herein that are more
appropriately considered conclusions of law are to be so deemed.
Likewise, any conclusion of law more appropriately considered a
finding of fact shall be so deemed.

App-75
5. Wal-Mart is a publicly traded corporation. No
person owns a majority of its stock.
6. Wal-Mart has a plan to open liquor stores
adjacent to some of its existing Texas locations. These
liquor stores would operate on separate premises from
Wal-Mart’s existing retail stores and would obtain
separate package store permits to authorize the sale
of liquor. Wal-Mart is prevented from implementing
its plan by the statutes challenged in this lawsuit.
7. TABC is the state agency charged with issuing
permits and enforcing the Texas Alcoholic Beverage
Code. If Wal-Mart were to apply for a package store
permit (which would allow it to sell liquor), TABC
would deny Wal-Mart’s application based on the
challenged statutes.
8. TPSA is the trade association of Texas package
stores. TPSA only accepts applications from package
stores that are majority-owned by Texans.
II. Texas’s Off-Premises Retail Permits
9. To sell alcoholic beverages for off-premises
consumption in Texas, retailers must obtain a
separate permit for each physical location where
alcohol is sold. Each permit authorizes an unlimited
volume of sales from the permitted location. There are
four off-premises retail permits relevant to this case.
10. First, a “Package Store Permit,” also referred
to as a “P permit,” authorizes the sale of distilled
spirits (commonly referred to as “liquor”), wine, and
ale for off-premises consumption. Tex. Alco. Bev. Code
§ 22.01. This is the permit held by liquor stores (also
known as “package stores”).

App-76
11. Second, a “Wine Only Package Store Permit,”
also referred to as a “Q permit,” authorizes the sale of
wine and ale for off-premises consumption. Id. § 24.01.
12. Third, a “Retail Dealer’s Off-Premise License,”
also referred to as a “BF license,” authorizes the sale
of beer for off-premises consumption. Id. § 71.01.
13. Fourth, a “Wine and Beer Retailer’s OffPremise Permit,” also referred to as a “BQ permit,”
authorizes the sales of wine, ale, and beer for offpremises consumption. Id. § 26.01. The BQ permit is
similar to the combination of the BF license and the Q
permit. There are, however, some technical
differences. First, a Q permit allows a retailer to sell
wine with a higher alcohol content than the BQ
permit. Second, unlike a BQ permittee, a Q permittee
is authorized to apply for some subordinate permits
that would allow the Q permittee to transport its
inventory between stores and to make certain local
deliveries. Large grocery stores typically hold BQ
permits to authorize their sales of beer and wine.
III. The Challenged Statutes
14. Wal-Mart challenges four Texas statutes
governing the issuance of package store permits. WalMart argues that these statutes, individually and in
concert, prevent it from selling liquor in the state, and
challenges the statutes as unconstitutional under the
dormant Commerce Clause and the Equal Protection
Clause of the United States Constitution.
15. First, the “public corporation ban” forbids “any
entity which is directly or indirectly owned or
controlled, in whole or in part, by a public corporation”
from holding a package store permit. Tex. Alco. Bev.
Code § 22.16(a). A public corporation is defined as a

App-77
corporation “whose shares . . . are listed on a public
stock exchange” or “in which more than 35 persons
hold an ownership interest.” Id. § 22.16(b). Texas does
not forbid public corporations from holding any of the
other seventy-five kinds of alcohol permits it issues.
Moreover, Texas is the only state that bars public
corporations from selling liquor solely because of their
status as public corporations.
16. Second, the “five-permit limit” nominally
limits a package store permittee to holding no more
than five permits. Id. § 22.04. However, this permit
cap is subject to a significant exception, discussed
below.
17. Third, the “consanguinity exception” to the
five-permit limit authorizes a consolidation process
that allows many companies to circumvent the fivepermit limit. Id. § 22.05. The statute provides that if
“two or more persons related within the first degree of
consanguinity have a majority of the ownership in two
or more legal entities holding package store permits,
they may consolidate the package store businesses
into a single legal entity.” Id. The consolidated entity
“may then be issued permits for all the package stores,
notwithstanding any other provision of this code.” Id.
The practical effect of the consanguinity exception is
that the five-permit limit applies only to the following
classes of package-store permittees: (1) permittees
who lack an individual who owns a majority of the
business, and (2) permittees whose majority owner
lacks a child, sibling, or parent who is willing and able
to assist with the consolidation process.
18. A fourth and final statute prohibits BQ
permittees from also holding an interest in a package

App-78
store permit. Id. § 22.06(a)(2). In contrast to BQ
permittees, BF licensees (who sell beer) and Q
permittees (who sell wine and ale) are allowed to hold
package store permits. In order to open a package
store, Wal-Mart would first be required to abandon its
BQ permits and instead obtain BF licenses and Q
permits for all of its existing retail locations that sell
beer and wine.
IV. The Texas Liquor Market Is Served By
Large, Competitive Package Store Chains
19. Out of a total of 2,578 active package store
permits issued by TABC, 574 are owned by a package
store chain (meaning, a business holding six or more
package store permits). TABC Ex.-120. There are now
21 such chains. Id. The largest chain, Spec’s Family
Partners, holds 158 permits. Id. Since 1944, the chains
have greatly increased their number of stores, and
their volume of sales, even as the total number of
package stores has stayed approximately the same.
Tr. June 5, at 225:1-227:3, 251:13-252:6; WM Ex-130.
20. Many of Texas’s package store chains operate
large stores with broad selections of products and
hundreds of employees. E.g., WM Ex-150; WM Ex-151;
WM Ex-178. For example, Gabriel’s Liquors operates
a 20,000 square-foot “big box liquor close-out store”
and has a 40,000 square-foot distribution warehouse.
Tr. June 7 (Vol. II), at 3:4-8, 19:5-18. In 2012, Gabriel’s
had annual revenues of approximately $105 million, a
product mix of 20,000 separate SKUs and nearly 300
employees. WM Ex-263, at 12.
21. The credible evidence demonstrates that
package store chains compete vigorously. Package
stores offer extensive promotions and discounts. E.g.,

App-79
WM Ex-188. Package stores also compete to be the
most convenient to their customers and to offer the
largest selection and variety of products.
22. The credible evidence also demonstrates that
package store chains have a very large share of the
Texas market. Dr. Kenneth Elzinga, Wal-Mart’s
expert, testified that package store chains hold
between 22% and 40% of the all the package store
permits in each of the five most populous Metropolitan
Statistical Areas (“MSAs”) in the state, which together
contain two-thirds of the state’s population. Tr. June
5, at 242:11-244:7; WM Ex-149. This figure likely
understates the market share held by package store
chains, because Dr. Elzinga did not have data on the
volume of spirits sold. According to one report, the four
largest chains have more than 60% of the total market
share of the retail liquor market in twenty-two Texas
cities. Tr. June 5, at 245:18-248.
V. The Public Corporation Ban Was Enacted
With the Purpose of Discriminating Against
Out-of-State Retailers
23. The credible evidence shows that the public
corporation ban was enacted in response to a
successful dormant Commerce Clause challenge to a
previous Texas law, which imposed a residency
requirement that restricted alcoholic-beverage
permits to Texas residents and to firms majorityowned by Texans. See Wilson v. McBeath, No. A-90-cv736, 1991 WL 540043 (W.D. Tex. June 13, 1991), aff’d
sub nom. Cooper v. McBeath, 11 F.3d 547 (5th Cir.
1994) (striking down Tex. Alco. Bev. Code § 109.53).
24. In May 1993, after the district court struck
down the residency requirement but while the appeal

App-80
was pending before the Fifth Circuit, the Texas
Legislature passed House Bill 1445. That law reduced
the length of time that the holder of an alcoholicbeverage permit was required to be a resident of Texas
(from three years to one) and eliminated the
requirement altogether for mixed beverage permits
and beer-and-wine permits (but not for package store
permits). See WM Ex-16 (H.B. 1445), § 6.03(k); Tr.
June 7 (Vol. I), at 197:18-24. TPSA viewed the Cooper
litigation as part of a “tug of war between the
legislature and the federal courts over the residency
requirement.” Tr. June 7 (Vol. I), at 217:20-24. TPSA
supported H.B. 1445. Id. at 201:3-8.
25. The purpose of H.B. 1445 was to prevent the
Fifth Circuit from issuing a merits decision in Cooper.
This purpose was revealed during a floor debate on an
amendment proposed by Representative Mark Stiles.
The Stiles Amendment would have retained the
residency requirement for all permits. WM Ex-33, at
4:9-12. During the House debate on this amendment,
Representative Stiles noted that the Cooper lawsuit
was the “real reason” for H.B. 1445’s partial
elimination of the residency requirement. Id. at 8:2425. He urged his colleagues to “try to settle [their]
lawsuit” (referring to the Cooper litigation) rather
than “take the whole baby and throw it out with the
bath water.” Id. at 10:3-4. Representative Stiles’s
opponents argued that H.B. 1445 would actually save
most of the state’s residency requirements because, by
eliminating the residency requirement for mixedbeverage permits, the bill would prevent the Fifth
Circuit from reaching a broader merits holding in
Cooper that would strike down the residency
requirement for all permits, including specifically

App-81
package store permits. Id. at 6:23-7:11; 16:21-17:15.
Some Representatives also stated that a “deal” had
been made with the Cooper plaintiffs, in which those
plaintiffs had pledged to dismiss their case if H.B.
1445 became law. Id. at 18:1-7; 8:22-23. The TPSA
opposed the Stiles Amendment. Id. at 24:3-4.
26. After H.B. 1445 was passed, the Cooper
plaintiffs moved to dismiss their lawsuit. 11 F.3d at
551. However, the Fifth Circuit rejected the plaintiffs’
suggestion that their case was now moot. Id. The Fifth
Circuit issued its Cooper decision in January 1994. On
the merits, it affirmed the district court and struck
down the state’s residency requirement using broad
language that, fairly read, applied not only to mixedbeverage permits but to all other retail permits as
well. Id. at 554.
27. During the next Legislative Session, which
convened in 1995, the TPSA drafted the public
corporation ban. Tr. June 7 (Vol. I), at 225:12-226:24.
The drafter of the bill was Fred Niemann, Jr., a lawyer
and lobbyist for the TPSA who specialized in
legislative affairs. Id. at 225:22-226:12, 184:9-185:22.
Mr. Niemann was the only witness for the bill; he also
drafted fliers to be distributed to legislators and staff
explaining the bill. Id. at 237:20-24, 238:19-241:4. At
his deposition, the bill’s Senate sponsor confirmed
TPSA’s critical role in the bill’s enactment, stating
that he did not “dream[] up” the bill himself. See
Armbrister Dep., at 105:6-11.
28. TPSA conceived, drafted and supported the
public corporation ban because the TPSA feared that
Cooper would be applied to strike down the residency
requirement for package store permits. Tr. June 7

App-82
(Vol. 1), at 192:3-11, 218:20-219:4, 236:14-22. This fear
was the “very, very strongest” reason why TPSA
drafted the public corporation ban. Id. 237:8-9.
Without the residency requirement, TPSA was
“afraid” that “very large stores could disrupt what had
been a very stable business climate” for TPSA’s
members. Id. 220:16-19, 225:8-11. TPSA feared the
“Wal-Martization” of the Texas package store market.
Id. 237:8-10. TPSA considered Wal-Mart to be “the
poster child” for the idea that “big stores had come into
Texas” and “had driven out of business most momand-pop and local businesses.” Id. 220:20-221:6. The
Legislature was aware (from Mr. Niemann’s
legislative testimony) that the public corporation ban
was a response to the Cooper decision. WM Ex-288, at
2-3 (written testimony); WM Ex-78, at 4:11-19 (House
Committee testimony); PX-63, 10:1-2 (Senate
Committee testimony).
29. The credible evidence demonstrates that, if
not for the Fifth Circuit striking down Texas’s
residency requirement, TPSA would not have
proposed, and the Legislature would not have enacted,
the ban on public corporations holding package store
permits.
30. The public corporation ban did not affect any
of the incumbent package store permittees, all of
whom were Texans or were majority-owned by
Texans. Tr. June 7 (Vol. I), 220:2-8. TPSA was not
aware of any (Texas-owned) public corporations that
held package store permits in 1995. Id. at 219:18-24.
Even if a Texas-owned public corporation did hold a
package store permit, that corporation would have
been exempted from the ban, due to the ban’s

App-83
grandfather clause. Id. at 258:13-25; see also Tex. Alco.
Bev. Code § 22.16(f). Johnny Gabriel created two
Texas-owned public corporations immediately prior to
the public corporation ban taking effect. Tr. June 9
(Vol. II), at 13:4-14.
31. While TPSA’s lawyer and lobbyist testified at
trial that the purpose of the public corporation ban
was to preserve a favorable “business climate” for
TPSA’s members, Tr. June 7, 220:16-19, in its formal
lobbying efforts for the public corporation ban, the
TPSA offered a different rationale. In its testimony to
the Legislature, TPSA claimed the public corporation
ban was needed to promote “accountability,” or the
need “to have real human beings who are easily
identifiable, who are close to the business, and who
ultimately bear personal responsibility for the actions
of the package store.” WM Ex-288, at 2-3 (written
testimony); WM Ex-78, at 4:11-19 (House Committee
testimony); WM Ex-63, at 10:1-2 (Senate Committee
testimony).
32. TPSA presented no evidence to the
Legislature of any actual problems with corporate
accountability in the sale of distilled spirits or of any
other product. Tr. June 7 (Vol. I), 251:8-253:5. At trial,
Mr. Niemann admitted he was “speculating” when he
testified to the Legislature that public corporations
might be less accountable. Id. 252:2-5. The lack of any
evidence is telling because public corporations had
been able to obtain package store permits since 1935
(so long as they were majority Texan-owned) and
because out-of-state public corporations had been
allowed to hold both mixed-beverage and beer-and-

App-84
wine permits since 1993. Id. at 198:14-200:15, 250:21253:5.
33. The credible evidence suggests TPSA devised
the “accountability” rationale in order to obscure the
ban’s discriminatory purpose. Mr. Niemann, a lawyer,
was aware of the Cooper litigation and knew that the
legislative history of the public corporation ban would
likely be reviewed for evidence of discriminatory
purpose. Id. at 253:13-254:16. Mr. Niemann admitted
that he “knew that any bill might be challenged” and
that his “assignment was to craft a bill which [the
TPSA] felt would survive a commerce clause
challenge.” Id. 253:19-22. In light of the absence of any
evidence in the record indicating TPSA was concerned
about promoting corporate accountability and Mr.
Niemann’s testimony that TPSA’s chief concern was
maintaining the business climate created by the
residency requirement, the Court concludes that the
proffered “accountability” rationale was pretextual.
TPSA, in its testimony to the Legislature, speculated
that the public corporation ban would promote
corporate accountability in order to conceal the ban’s
actual discriminatory purpose (to protect Texas
package store owners from out-of-state competition).
34. The Senate sponsor of the public corporation
ban, Senator Kenneth Armbrister, confirmed the
discriminatory purpose of the law during the Senate
floor debate. When asked to explain the ban’s purpose,
Senator Armbrister’s first answer was that the ban
means that “you can’t have a package store inside a
Walmart” and “Walmart can’t own the package store.”
WM Ex-66, 4:8-15. Senator Armbrister later agreed
with a colleague’s statement that the Legislature

App-85
“wanted to have somebody from Texas with the license
that you get hold of to enforce the Code.” Id. at 7:1016 (emphasis added).
VI. Appeals to Discrimination Against Out-ofState Companies Prevented Repeal of the
Public Corporation Ban, the Five-Permit
Limit, and the Consanguinity Exception
35. Bills to repeal the five-permit limit and the
consanguinity exception were introduced in 2009,
2013, and 2015. In addition, two bills introduced in
2015 would have repealed all the statutes challenged
in this lawsuit, including the public corporation ban.
TPSA successfully lobbied against these repeal efforts
by making blatantly discriminatory arguments in
testimony to the Legislature. See WM Ex-109, at 19:521:15 (2013 Senate testimony); WM Ex-101, at 22:1126:5 (2009 Senate testimony); see also WM Ex-105, at
11:25-21:2 (2013 House testimony); WM Ex-97, at
12:18- 14:23 (2009 House testimony).
36. In 2009, a TPSA representative testified,
“[R]epealing the five store limit would open the door
wide for out-of-state big box chains to enter the Texas
market and use massive marketing power to displace
Texas liquor stores. The profits of these corporations
would then be shipped off to Arkansas and other states
instead of remaining here in Texas.” WM Ex-101, at
24:15-21. Similarly, in 2013, a TPSA representative
testified that repeal would “open it up for [companies]
outside Texas to come in and take the money right out
of the state.” WM Ex-109, at 24:16-19.
37. TPSA also made these discriminatory
arguments in its written lobbying materials. See WM
Ex-251; WM Ex-256; WM Ex-275; WM Ex-278. For

App-86
example, in one piece of legislative advertising, TPSA
asserted that “Wal-Mart wants to take profits that are
now going to local Texas businesses, profits that are
now staying in local Texas communities, and instead,
Wal-Mart wants to send those profits to Bentonville,
Arkansas!” WM Ex-256. In another handout, entitled
“Alcohol Laws Favor and Protect Texas Liquor
Stores,” TPSA argued approvingly that “[t]he
Alcoholic Beverage Code is biased in favor of Texas
ownership of liquor stores.” WM Ex-275. The TPSA
handout explained that “all 2,300 liquor stores in the
state are still owned by Texas residents” because of
“the prohibition in the Code against a corporation with
more than 35 shareholders.” Id. TPSA warned that
because “Wal-Mart has hundreds of thousands of
shareholders . . . repealing
the
35-shareholder
provision would allow Wal-Mart to own and operate
liquor stores in Texas.” Id.
VII. The
Public
Disproportionately
Companies

Corporation
Ban
Affects
Out-of-State

38. The credible evidence demonstrates that the
public corporation ban disproportionately affects outof-state companies. The law disproportionately
burdens out-of-state companies’ ability to enter the
Texas retail liquor market. Certainly, the statute has
the effect of preventing both some in-state and some
out-of-state firms from entering the Texas retail liquor
market. Yet, only a very small percentage of the instate firms that would otherwise serve this market are
prevented from doing so by the public corporation ban.
On the other hand, a very large percentage of the outof-state companies that would otherwise serve this

App-87
market are blocked. In fact, the credible evidence
suggests that the overwhelming majority of out-ofstate companies that would otherwise sell liquor in
Texas cannot do so because of the public corporation
ban.
39. The vast majority of package store businesses
operating in Texas are owned by Texas residents.
According to the TABC, there are a total of 1,765
package store firms in the state, holding a total of
2,579 permits. TABC Ex-73. Only four of those
package store firms are out-of-state entities; those
four firms hold a total of five permits. Tr. June 7 (Vol.
I), at 102:11-103:1, 103:20-104:5; TABC Ex-32. Only
thirty-seven of those package store firms are held by
an entity with a single out-of-state shareholder; those
thirty-seven firms hold a total of forty-eight permits.
Tr. June 7 (Vol. I), at 104:6-106:3; TABC Ex-33. Thus,
only around 2% of Texas package store firms and
around 2% of Texas package stores have any out-ofstate ownership. Ninety-eight percent of Texas
package stores and Texas package store companies
are wholly owned by Texans. (Of course, a package
store or package store company that is not wholly
owned by Texans may still be majority owned by
Texans.)
40. Dr. Elzinga’s analysis of Texas’s largest
alcoholic beverage retailers also provides credible
evidence
that
the
public
corporation
ban
disproportionately burdens out-of-state companies.
The ten largest package store chains in Texas’s five
most populous MSAs are all Texas-owned, with a
single exception in Dallas (Total Wine & More). Tr.
June 6, at 45:14-20; WM Ex-173. By contrast, the ten

App-88
largest beer-and-wine retailers in these same MSAs
are evenly split between Texas retailers and out-ofstate retailers. Tr. June 6, at 40:9-41:4, 41:22-42:6,
46:8-48:24; WM Ex-173. Because beer, wine and
spirits are related markets, and because the public
corporation ban does not apply to beer or wine
permits, Dr. Elzinga credibly concluded that the
dominance of Texas-owned firms in the package store
market is the result of the challenged statute. Tr. June
6, at 49:6-11.
41. Dr. Elzinga also credibly testified about the
mechanism by which the public corporation ban
excludes out-of-state entrants. Dr. Elzinga identified
twenty-eight out-of-state firms that might enter the
Texas package store market, if the challenged statutes
were removed. These are firms that (1) sell spirits in
states other than Texas, or sell beer or wine in Texas;
and (2) have over $1 billion in annual revenues. Tr.
June 6, at 49:12-52:4, 56:11-57:14. All twenty-eight of
these firms are likely entrants, and all twenty-eight
are blocked by the public corporation ban. Id. at 50:1324; PX-174. None of TABC’s or TPSA’s expert
witnesses identified any additional likely out-of-state
entrant (other than Total Wine & More) that is not
blocked by the law.
42. Indeed, the weight of the available evidence
indicates that very few out-of-state firms with fewer
than thirty-five shareholders are realistic potential
entrants to the Texas market. Expanding into even a
neighboring state requires capital and scale. See Tr.
June 6, at 56:11-57:14. Firms with the required capital
and scale are almost always firms that have diffuse
ownership. See id. It follows that the out-of-state

App-89
companies that are most likely to enter the Texas
retail liquor market—those with the necessary capital
and scale—are the same companies that are blocked
by the public corporation ban.
43. Dr. Elzinga identified only three Texas-based
firms that otherwise would be likely to enter the
package store market but which are blocked from
doing so because they are publicly traded. Tr. June 6,
at 52:25-53:18; WM Ex-175. He identified another
three in-state firms that are likely blocked, but,
because they are privately held, their exact number of
owners is unknown. Id. On cross-examination, he
acknowledged a handful of other in-state companies
that might be barred by the challenged statute.
Regardless of the exact number (which is impossible
to measure with precision), it is clear that there are
only a handful of potential in-state entrants barred by
the public corporation ban. The handful of barred instate entrants is dwarfed by the nearly two thousand
Texas-owned firms already serving the package store
market. It follows that a very small percentage of
potential in-state entrants are blocked by the
challenged statutes.
44. TABC and TPSA rely on the testimony of Dr.
Devrim Ikizler, one of TPSA’s experts, to argue that
the public corporation ban does not disproportionately
affect out-of-state companies. See Tr. June 9 76:6-79:6;
TPSA Ex-47. Having considered this testimony, the
Court finds it unpersuasive. Dr. Ikizler compares the
top ten package store permit holders (which hold
between 15 and 160 permits each) to the BQ permit
holders (beer and wine retailers) that have a
comparable number of permits. He found that 90% of

App-90
the package store permittees with between 15 and 160
permits are in-state companies, whereas 94% of BQ
permittees with between 15 and 160 permits are instate companies. The problem with this testimony is
that beer and wine retailers tend to hold many more
permits than package store companies. One reason for
this is that beer and wine retailers are not subject to
Texas’s separate premises requirements, which means
that many businesses (for example, convenience
stores) are eligible to sell beer and wine but not liquor.
Consequently, Dr. Ikizler’s analysis compares the very
largest package store firms to a set of relatively small
beer and wine retailers, without accounting for the
fact larger companies are more likely to be from out of
state. Moreover, with regard to the effect the public
corporation ban has on out-of-state companies, the
remainder of Dr. Ikizler’s testimony errs by asking
whether the number of Texas companies in the retail
liquor market is comparable to Texas’s share of the
population or Texas’s share of the Top 100 retailers
nationwide. E.g., TABC Ex-48. This is not the
appropriate method of assessing whether a statute
disproportionately affects interstate commerce. See
infra Section X.C.
45. In some instances, the effects of a law on
interstate commerce can be easily measured by
comparing the composition of the market before the
law’s introduction to the composition of the market
after the law is in place. Here, Texas enforced its
unconstitutional residency requirement for more than
ten years after the introduction of the public
corporation ban. It is thus impossible to know with
certitude what the package store market would look
like without the public corporation ban and without

App-91
the residency requirement. However, the credible
evidence suggests that, without the public corporation
ban, a substantially larger share of the firms
participating in the Texas retail liquor market would
be from out of state. Because we know that, with the
public corporation ban, the market is overwhelmingly
served by companies wholly owned by Texans, it
follows that the ban has blocked the majority of
potential out-of-state entrants. At the same time, it is
clear that the ban has blocked only a handful of
potential in-state entrants. For that reason, the Court
concludes that the public corporation ban
disproportionately burdens out-of-state companies.
VIII.
The Challenged Statutes May Affect the
Price, Convenience, and Consumption of
Liquor
46. The consumption of alcohol can contribute to
a numerous health problems including liver disease,
heart disease, strokes, and cancer, and is associated
with numerous other social ills, including drinking
and driving, child and spousal abuse, homicides, and
suicides. Tr. June 8 (Vol. II), at 18:22-20:13; Tr. June
8 (Vol. I); at 87:3-88:1. The economic costs resulting
from excessive drinking are substantial. Tr. June 8
(Vol. I), at 88:2-89:1.
47. Alcohol consumption is responsive to price.
There is broad consensus that increasing the price of
alcohol is an effective way to reduce the consumption
of alcohol and the harms and externalities associated
with alcohol consumption. Tr. June 8 (Vol. I), at 29:1925, 85:10-86:3. Additionally, policies limiting the
number of retail outlets selling alcohol can be effective
in reducing alcohol consumption, and greater outlet

App-92
density is associated with an increase in the harms
and
externalities
associated
with
alcohol
consumption. Tr. June 6, at 170:12-17, 175:1-19,
178:2-6; Tr. June 8 (Vol. II), at 28:13-31:2.
48. In enacting the public corporation ban, the
Texas Legislature could have reasonably believed that
allowing public corporations to sell liquor in the state
would lead to large corporations entering the market,
increasing the total supply of liquor and putting
downward pressure on prices. Similarly, the Texas
Legislature could have reasonably believed that
allowing public corporations to sell liquor in the state
would lead to more companies selling liquor at retail,
increasing the total number or retail outlets selling
liquor in the state. Additionally, the Texas Legislature
could have reasonably believed that public
corporations are likely to be larger and have access to
more capital than other retailers, and consequently
enjoy a scale advantage that would allow them to sell
liquor at a discount. Tr. June 8 (Vol. I), at 98:2-7; Tr.
June 9 (Vol. II), at 201:21-24; 201:24-25.
49. However, to the extent that the public
corporation ban has an effect on the price or
availability of liquor in Texas, this outcome could be
achieved through alternative measures, including the
imposition of an excise tax or through regulatory
measures that directly control how and where liquor
can be sold and how many outlets are allowed to sell
liquor. Specifically, excise taxes are widely used to
reduce alcohol consumption and their efficacy is
commonly accepted. All five experts testified to the
efficacy of excise taxes. Tr. June 5, at 261:2-262:12
(Elzinga); Tr. June 6, at 61:18-63:12; 117:21-119:8;

App-93
225:22 to 226:11; 241:8-245:17 (Elzinga); Tr. June 8
(Vol. I), at 69:1-70:10 (Chaloupka); Tr. June 8 (Vol. II),
at 24:1-26:1 (Gruenewald); Tr. June 9 (Vol. II), at 49:920, 129:6-130:14 (Ikizler); Tr. June 9 (Vol. II), at
182:14-19 (Magee).
IX. The Challenged Statutes Do Not Promote
Corporate Accountability
50. The credible evidence demonstrates that
public corporations are not less accountable than
firms with fewer than 35 owners. Dr. Elzinga testified
that the ten largest BQ permittees (including WalMart) had fewer TABC violations per store than did
the ten largest P permittees. Tr. June 6, at 32:6-38:21.
Moreover, he testified that there is no support in the
academic literature for the notion that public
corporations are less accountable to regulators than
privately held corporations. Id. at 33:12-34:21. To the
contrary, the literature indicates public corporations
tend to be very concerned with compliance and
reputation. Dr. Elzinga’s opinion was not rebutted by
the TABC’s or the TPSA’s experts.
51. TABC already holds public corporations
accountable for their sales of beer and wine at retail,
for their sales of spirits in hotels, and for their sales of
mixed beverages in bars and restaurants. Tr. June 7
(Vol. I), at 162:15-163:12; 172:13-25. Neither TABC
nor TPSA has shown a single instance in which the
state has been unable to contact or hold accountable a
public corporation.

App-94
CONCLUSIONS OF LAW
X. Dormant Commerce Clause
52. The United States Constitution affords
Congress
the
power
to
“[t]o
regulate
Commerce . . . among the several States.” U.S. Const.
art. I, § 8, cl. 3. “The Supreme Court has long
recognized that this provision has a necessary, logical
corollary: If Congress has the power to regulate
commerce among the states, then the states lack the
power to impede this interstate commerce with their
own regulations.” Dickerson v. Bailey, 336 F.3d 388,
395 (5th Cir. 2003). The “dormant Commerce Clause”
serves as “a substantive restriction on permissible
state regulation of interstate commerce.” Dennis v.
Higgins, 498 U.S. 439, 447 (1991).
53. A state regulation can violate the dormant
Commerce Clause in one of two ways. First, a law is
presumptively invalid if “it discriminates against
interstate commerce either facially, by purpose, or by
effect.” Allstate Ins. Co. v. Abbott, 495 F.3d 151, 160
(5th Cir. 2007) (citing Bacchus Imports, Ltd. v Dias,
468 U.S. 263, 270 (1984)). A law that so discriminates
“is valid only if the state ‘can demonstrate, under
rigorous scrutiny, that it has no other means to
advance a legitimate local interest.’” Id. (quoting C &
A Carbone, Inc. v. Town of Clarkstown, 511 U.S. 383,
392 (1994)). Second, a law that does not directly
discriminate against interstate commerce violates the
dormant Commerce Clause only if it imposes a burden
on interstate commerce that “is ‘clearly excessive’ in
relation to the putative local benefits.” Id. (quoting
Pike v. Bruce Church, Inc., 397 U.S. 137, 142 (1970)).
This more deferential standard of review for laws that

App-95
burden but do not discriminate against interstate
commerce is known as the Pike balancing test.
54. Wal-Mart argues that the public corporation
ban, the five-permit limit, and the consanguinity
exception discriminate against interstate commerce in
both their purpose and their effect. Alternatively, WalMart argues that the statutes fail Pike balancing.
55. The Court concludes that the public
corporation ban was enacted with discriminatory
intent: one of the legislature’s primary purposes in
passing the ban was to exclude out-of-state companies
from participating in the Texas retail liquor market.
Neither TABC nor TPSA argues that the ban can
survive
the
rigorous
scrutiny
applied
to
discriminatory statutes. The ban’s discriminatory
purpose renders it inconsistent with the dormant
Commerce Clause and therefore unconstitutional.
56. However, the Court cannot conclude that the
public corporation ban has a discriminatory effect.
Admittedly, the ban disproportionately affects out-ofstate companies. It serves to exclude from the Texas
retail liquor market the vast majority of potential outof-state entrants. Consequently, the market is served
almost exclusively by in-state companies. Yet, the
public corporation ban nominally treats similarly
situated in-state and out-of-state companies equally.
Under controlling precedent, this is sufficient to avoid
a finding of discriminatory effect.
57. Wal-Mart also argues that the public
corporation ban fails the Pike balancing test. The
Court agrees. The weight of the evidence suggests that
the statutes impose on interstate commerce a burden
that is clearly excessive relative to the laws’ putative

App-96
benefits. Thus, even if the statute is not so
discriminatory as to warrant strict scrutiny, it
nonetheless fails under the more deferential standard
of review applied to laws that incidentally burden
interstate commerce.
58. Finally, the Court declines to find that either
the five-permit limit or the consanguinity exception
independently offend the dormant Commerce Clause.
The available evidence is insufficient to conclude that
either statute burdens interstate commerce.
A. The Purpose of the Public Corporation
Ban Is to Discriminate Against Out-ofState Companies
59. A state regulation violates the dormant
Commerce Clause if it “discriminates against
interstate commerce . . . by purpose.” Allstate, 495
F.3d at 160 (citing Bacchus Imports, Ltd. v. Dias, 468
U.S. 263, 270 (1984)). In determining whether a law
purposefully
discriminates
against
interstate
commerce, the Fifth Circuit uses the four factors set
forth in Arlington Heights, which include: “(1) whether
a clear pattern of discrimination emerges from the
effect of the state action; (2) the historical background
of the decision, which may take into account any
history of discrimination by the decisionmaking body;
(3) the specific sequence of events leading up to the
challenged decision, including departures from
normal procedures; and (4) the legislative or
administrative history of the state action, including
contemporary statements by decisionmakers.” Id.
(citing Village of Arlington Heights v. Metro. Housing
Dev. Corp., 429 U.S. 252, 266-268 (1977)). Here, all
four Arlington Heights factors demonstrate that the

App-97
purpose of the ban was to discriminate against out-ofstate companies.
60. First, “a clear pattern of discrimination
emerges from the effect of the” public corporation ban.
Id. The ban has had the effect of barring nearly all outof-state companies with the scale and capabilities
necessary to serve the Texas retail liquor market. See
supra Section VII. Over 98% of Texas package stores
and Texas package store companies are 100% Texasowned. Id. Since Texas ceased enforcing its
unconstitutional residency requirement, only one
significant out-of-state company has entered the
Texas market. Id.
61. Second, there is an undeniable “history of
discrimination by the decisionmaking body.” Allstate,
495 F.3d at 160. The Texas Legislature, through a
variety of laws (collectively, the “residency
requirement”), has expressly prohibited out-of-state
persons and companies from owning package stores
since the passage of the Liquor Control Act. In 1994,
the Fifth Circuit found that the residency
requirement, at least as applied to a different type of
liquor permit not at issue here, was discriminatory
and inconsistent with the dormant Commerce Clause.
Cooper, 11 F.3d at 555-56. Nonetheless, Texas
continued to enforce the residency requirement as
applied to package store permits for another twelve
years, ceasing enforcement only when it was
permanently enjoined by a federal district court. Wine
& Spirits of Texas, Inc. v. Steen, 486 F. Supp. 2d 626,
633 (W.D. Tex. 2007). To this day, the residency
requirement remains on the books. E.g., Tex. Alco.
Bev. Code § 109.53.

App-98
62. Third, the “specific sequence of events leading
up to the challenged decision” evinces discriminatory
purpose. Allstate, 495 F.3d at 160. Specifically, the
proximate cause of the Legislature’s decision to enact
the public corporation ban was the Fifth Circuit’s
decision invalidating the residency requirement. See
supra Section V. If not for the Cooper decision, the
public corporation ban would never have been
conceived, drafted or enacted. Id. The Legislature
attempted to strike a deal to moot the Cooper appeal
and thus avoid a broad ruling that would jeopardize
the enforceability of all its residency requirements. Id.
After this strategy failed, the Legislature enacted the
public corporation ban in the very next session. Id.
63. Fourth, “the legislative . . . history of the state
action” includes direct evidence of discriminatory
purpose. Allstate, 495 F.3d at 160. The Senate sponsor
of the public corporation ban agreed that the purpose
of the ban is to make sure that package stores are
owned by “somebody from Texas” and to guarantee
that “you can’t have a package store inside a WalMart.” WM Ex-66, at 4:8-15, 7:10-15. The lobbyist who
drafted the bill and served as its sole witness testified
that the purpose of the public corporation ban was to
preserve the “stable business climate” created by the
residency requirement. 2 Tr. June 7 (Vol. I), at 225:8In assessing the purpose of the public corporation ban, the
Court may rely on statements made by TPSA and its
representatives. See Allstate, 495 F.3d at 161 (relying on
statements by non-legislator witnesses in assessing purpose of
challenged law); S. Dakota Farm Bureau, Inc. v. Hazeltine, 340
F.3d 583, 596–97 (8th Cir. 2003) (finding discriminatory purpose
based on statements made by law’s proponents, and therefore
holding the law violated the dormant Commerce Clause);
2

App-99
11. No reasonable inference can be drawn from these
statements other than that the Legislature enacted
the public corporation ban with the purpose of
preventing out-of-state companies from entering the
market in the event that the courts extended Cooper
to invalidate the residency requirement as applied to
package store permits.
64. Having reviewed the available evidence in
light of the four Arlington Heights factors, the Court
concludes that the purpose of the public corporation
ban is to discriminate against out-of-state retailers in
order to protect locally owned package stores.
65. This conclusion finds additional support from
TPSA’s reliance on expressly discriminatory
arguments in its lobbying efforts to prevent the
Legislature from repealing the public corporation
ban. 3 See supra Section VI. For example, one handout
created by the TPSA for the purpose of lobbying stated
that “all 2,300 liquor stores in the state are still owned
by Texas residents” in part because of “the prohibition
in the Code against a corporation with more than 35
shareholders.” WM Ex-275. TPSA’s consistent
reliance on protectionism as its central argument
against repeal efforts provides circumstantial
McNeilus Truck & Mfg., Inc. v. Ohio ex rel. Montgomery, 226 F.3d
429, 443 (6th Cir. 2000) (same).
The Court’s finding that the public corporation ban was
enacted with discriminatory purpose does not turn on the
evidence from subsequent repeal efforts. This evidence is,
however, appropriately considered. See Maine v. Taylor, 477 U.S.
131, 149 (1986) (considering, in assessing the purpose a law
enacted in 1959, statements made by those who opposed an
unsuccessful repeal effort in 1981).
3

App-100
evidence that in 1995 when TPSA drafted and lobbied
for the public corporation ban it was motivated by a
desire to protect Texas-owned package stores from
out-of-state competition. Similarly, these statements
provide some circumstantial evidence that TPSA
offered and the Legislature acted on protectionist
arguments when drafting and enacting the public
corporation ban.
66. TPSA argues that much of the evidence of
discriminatory purpose can be construed as evidence
of intent to discriminate against large companies, not
out-of-state companies. The Court is not persuaded.
As explained above, the weight of the evidence
indicates the Legislature specifically intended to
exclude out-of-state companies in order to benefit
incumbent, locally owned package stores. Moreover,
TPSA’s insistence that the public corporation ban was
motivated by concerns about the role of large
businesses is belied by TPSA’s repeated efforts to
defend the consanguinity exception, which serves to
remove any cap on the growth of most locally-owned
package store companies. If the Legislature, in
enacting the ban, was motivated primarily by a desire
to limit the size of package store companies, it is
difficult to conceive why it would maintain a provision
that prevents the imposition of a limit on the size of
most package store companies.
67. The Legislature’s discriminatory purpose in
enacting the public corporation ban is sufficient to
trigger strict scrutiny. The Fifth Circuit has
repeatedly said so. Allstate, 495 F.3d at 160 (citing
Bacchus Imports, 468 U.S. at 270) (emphasis added)
(“A statute violates the dormant Commerce Clause

App-101
where it discriminates against interstate commerce
either facially, by purpose, or by effect.”); Int’l Truck
& Engine Corp. v. Bray, 372 F.3d 717, 725 (5th Cir.
2004) (emphasis added) (“A court may find
discrimination based on evidence of discriminatory
effect or discriminatory purpose.”); see also Churchill
Downs Inc. v. Trout, 589 F. App’x 233, 234 (5th Cir.
2014) (quoting Allstate, 495 F. 3d at 160). Moreover,
multiple federal courts of appeals have found a law to
violate the dormant Commerce Clause on the basis of
discriminatory purpose alone. See S. Dakota Farm
Bureau, 340 F.3d at 596-97; Waste Mgmt. Holdings,
Inc. v. Gilmore, 252 F.3d 316, 341, 345 (4th Cir. 2001).
Absent some controlling clarification to the contrary,
the Court is compelled to apply strict scrutiny in light
of its finding that the public corporation ban was
enacted with discriminatory purpose.
68. When a law discriminates against interstate
commerce, courts apply the “strictest scrutiny.”
Oregon Waste Sys. Inc. v. Dep’t of Envt’l Quality, 511
U.S. 93, 101 (1994). “If a restriction on commerce is
discriminatory, it is virtually per se invalid.” Id. at 99.
A discriminatory law “is valid only if the state ‘can
demonstrate, under rigorous scrutiny, that it has no
other means to advance a legitimate local interest.’”
Allstate, 495 F.3d at 160 (quoting C & A Carbone, 511
U.S. at 392). Here, neither TABC nor TPSA argues
that the public corporation ban satisfies this burden.
Thus, the Court concludes that the public corporation
ban—enacted with the purpose of discriminating
against interstate commerce—violates the dormant
Commerce Clause.

App-102
B. The Public Corporation Ban Does Not
Have a Discriminatory Effect
69. A state regulation also violates the dormant
Commerce Clause if it “discriminates against
interstate commerce . . . by effect.” Allstate, 495 F.3d
at 160 (citing Bacchus Imports, 468 U.S. at 270). The
parties disagree as to the appropriate test to measure
discriminatory effect. Wal-Mart argues that a law has
a discriminatory effect if it disproportionately benefits
in-state interests at the expense of out-of-state
interests. See Churchill Downs, 589 F. App’x at 237
(recognizing that evidence indicating a law
“disproportionately affects out-of-state companies” is
evidence of discriminatory effect). TABC and TPSA
argue that even if a law disproportionately affects outof-state companies, there can be no discriminatory
effect unless the law differentiates between similarly
situated in-state and out-of-state companies. See
Allstate, 495 F.3d at 163 (“A state statute
impermissibly
discriminates
only
when
it
discriminates between similarly situated in-state and
out-of-state interests.”). The question is thus whether
a court can properly find a discriminatory effect when
a law treats similar in-state and out-of-state
companies equally but as a practical matter
disadvantages out-of-state interests.
70. Wal-Mart’s position draws some support from
Supreme Court precedent. In Hunt v. Washington
State Apple Advertising Commission, the Supreme
Court considered the constitutionality of a North
Carolina statute that required all closed containers of
apples shipped into the state to bear “no grade other
than the applicable U.S. grade or standard.” 432 U.S.

App-103
333, 335 (1977). At the time, many states other than
North Carolina had implemented their own grading
systems. Id. Among those states was Washington
State, the nation’s largest producer of apples with its
apples accounting for nearly 50% of all apples shipped
in interstate commerce. Id. at 336. The Supreme Court
applied heightened scrutiny to the statute because it
raised the cost of doing business in the North Carolina
market for out-of-state apple growers and therefore
discriminated against them. Id. at 351-352. The Court
acknowledged “the statute’s facial neutrality,” but
nonetheless found a discriminatory effect because the
statute’s “practical effect” was to burden out-of-state
growers. Id. at 350-352; see also Bacchus Imports, 468
U.S. 263 (1984) (finding a Hawaii tax exemption for
certain wines to have a discriminatory effect because
as a practical matter those wines were more common
in Hawaii).
71. Wal-Mart’s position that a disproportionate
impact on out-of-state companies is a sufficient basis
to find a discriminatory effect is bolstered by
persuasive authority from two federal courts of
appeals. In Cachia v. Islamorada, the Eleventh
Circuit considered a municipal ordinance banning all
“formula restaurants,” defined to include most chain
restaurants and fast food restaurants. 542 F.3d 839,
840-841 (11th Cir. 2008). The ordinance was facially
neutral and affected both in-state and out-of-state
companies. Id. at 842. Put differently, the ordinance
blocked many instate restaurants and allowed many
out-of-state restaurants. Id. Nonetheless, the court
determined that the ordinance had a discriminatory
effect because it operated as “an explicit barrier to the
presence of national chain restaurants.” Id. The court

App-104
reasoned that “[w]hile the ordinance does not facially
discriminate between in-state and out-of-state
interests, its prohibition of restaurants operating
under the same name, trademark, menu or style is not
evenhanded in effect, and disproportionately targets
restaurants operating in interstate commerce.” Id. at
844. Relying on Hunt, the court found that the
ordinance had “the practical effect of discriminating
against interstate commerce” and instructed the
district court to apply heightened scrutiny.
72. Similarly, in Family Winemakers of California
v. Jenkins, the First Circuit considered the
constitutionality of a Massachusetts statute that
allowed only small wineries (defined as producing
30,000 gallons or less of wine a year) to obtain a “small
winery shipping license.” 592 F.3d 1, 4 (1st Cir. 2010).
The holder of such license could sell wine by shipping
directly
to
consumers,
through
wholesaler
distribution, or through retail distribution. Id. Large
wineries, on the other hand, were forced to choose
between either shipping directly to consumers or
using wholesaler distribution. Unlike small wineries,
the law did not allow them to do both, and it did not
allow them, under either option, to sell directly to
retailers. Id. While the law did not expressly
differentiate between in-state and out-of-state
wineries, the court found discriminatory effect,
because it “significantly alter[ed] the terms of
competition between in-state and out-of-state wineries
to the detriment of the out-of-state wineries that
produce 98 percent of the countries wine.” Id. at 11.
While the law did not outright bar any winery from
distributing in Massachusetts, the court concluded
that its “ultimate effect” was to “artificially limit the

App-105
playing field in [the] market in a way that enables
Massachusetts’s wineries to gain market share
against their-out-state competitors.” Id.
73. Hunt, Cachia, and Family Winemakers all
instruct that a law discriminates against interstate
commerce if it has the practical effect of
disproportionately advantaging in-state interests at
the expense of out-of-state interests. And the Fifth
Circuit has acknowledged that evidence indicating a
law
“disproportionately
affects
out-of-state
companies” is evidence of discriminatory effect. See
Churchill Downs, 589 F. App’x at 237. If this were this
appropriate standard, the Court would easily find that
the public corporation ban has a discriminatory effect:
the available evidence suggests that the ban’s effects
are felt disproportionately by out-of-state companies,
which are largely barred from selling liquor in Texas.
See supra Section VII; infra Section X.C.
74. But TABC and TPSA point to a contrary line
of cases that define discriminatory effect much more
narrowly. In at least three controlling cases, higher
courts have upheld state regulations as consistent
with the dormant Commerce Clause because the
regulations treat similarly situated in-state and outof-state companies the same, even when those
regulations disproportionately affect out-of-state
companies.
75. In Exxon v. Governor of Maryland, the
Supreme Court upheld a state law, which prohibited
companies that produce or refine petroleum products
from also operating retail gas stations, over the
plaintiff’s objection that the law disproportionately
affects out-of-state petroleum companies. 437 U.S. 117

App-106
(1978). The majority reasoned that the Commerce
Clause does not protect “the particular structure or
methods of operation in a retail market.” Id. at 127.
The Exxon Court concluded that the ban on refiners
owning retail gas stations was permissible because it
did not “distinguish between in-state and out-of-state
companies in the retail market.” Id. “The fact that the
burden of a state regulation falls on some interstate
companies does not, by itself, establish a claim of
discrimination against interstate commerce.” Id.
76. The Fifth Circuit has twice relied on Exxon to
uphold statutes that arguably disproportionately
affect out-of-state companies. In Ford Motor Corp. v.
Texas Department of Transportation, the court
considered a statute which, as interpreted, prohibited
automobile manufacturers from selling vehicles
directly through their website. 264 F.3d 493, 498 (5th
Cir. 2001). The court stated that discrimination under
the dormant Commerce Clause does not “include all
instances in which a law, in effect, burdens some outof-state interest while benefitting some in-state
interest.” Id. at 500. Rather, for a law to have a
discriminatory effect it must provide “for differential
treatment based upon their contacts with the State.”
Id. at 501. Ultimately, the court upheld the law at
issue because Ford “failed to show that . . . in practical
effect, [the law] discriminates according to the extent
of a business entity’s contacts with the State.” Id. at
501. Similarly, in Allstate Insurance Co. v. Abbott, the
Fifth Circuit upheld a law prohibiting insurance
companies from obtaining an interest in a body shop,
notwithstanding the plaintiff’s argument that the law
disproportionately affects out-of-state insurers. 495

App-107
F.3d 151 (5th Cir. 2007). The Court determined that
Exxon was controlling.
77. Exxon, Ford, and Allstate allow for the
possibility that a law that is not facially
discriminatory may still have a discriminatory effect
if
it
disproportionately
impacts
out-of-state
companies. For example, the Supreme Court in Exxon
acknowledged, at least in a footnote, that “[i]f the
effect of a state regulation is to cause local goods to
constitute a larger share, and goods with an out-ofstate source to constitute a smaller share, of the total
sales in the market . . . the regulation may have a
discriminatory effect on interstate commerce.” Exxon,
437 U.S. at 126 n.16; but see Allstate, 495 F.3d at 162
(affording minimal weight to this footnote). But the
clear implication of these cases is that a finding of
discriminatory effect requires something close to facial
discrimination. After all, it would seem that a facially
neutral statute by definition treats similarly situated
entities equally.
78. In light of the fact that the public corporation
ban does not expressly differentiate between
companies based on their ties to Texas, the Court is
skeptical that a finding of discriminatory effect is
appropriate. That said, there is arguably a basis to
distinguish Exxon, Ford, and Allstate. Those cases
involved narrow regulations that may have
disproportionately affected out-of-state companies but
did not serve to bar most out-of-state companies from
entering the market. For example, in Exxon, the
record showed that “there are several major interstate
marketers of petroleum that own and operate their
own retail gasoline stations . . . who compete directly

App-108
with the Maryland independent dealers, [and] are not
affected by [the regulation at issue] because they do
not refine or produce gasoline.” 437 U.S. at 125-126.
Similarly, in Allstate, the record was “unclear” as to
“how the new regulations would affect any shift in the
current level of business presently enjoyed by out-ofstate suppliers of body shops to in-state shops.” 495
F.3d at 163. Here, the record shows that the
challenged statutes bar the majority of potential outof-state entrants to the Texas retail liquor market.
Consequently, the market is overwhelmingly served
by in-state firms. Unlike in Exxon and Allstate, the
challenged statutes do not simply bar a few particular
interstate companies from entering the Texas retail
liquor market; rather, they bar nearly all potential
out-of-state entrants, affecting the interstate market
as a whole. See Exxon, 437 at 117 (stating that the
dormant Commerce Clause “protects the interstate
market, not particular interstate firms”). But
ultimately, the Court is not satisfied that this
distinction, one only of degree, provides an adequate
basis to depart from Exxon, Ford, and Allstate’s
counsel.
79. The Court concludes that Exxon, Ford, and
Allstate preclude a finding of discriminatory effect.
Those cases instruct that a law does not discriminate
in effect unless the law differentiates between
similarly situated in-state and out-of-state companies
on the basis of the companies’ ties to the state. The
public corporation ban does not. Public corporations
are banned from the market whether or not they are
based in Texas or owned by Texans. Similarly,
corporations with fewer than thirty-five shareholder
are allowed to sell liquor in the state whether or not

App-109
they are based in Texas or owned by Texans. The
record indicates some Texas companies are blocked
from selling liquor in the state, and, conversely, at
least one significant out-of-state company has
successfully entered the Texas market. Thus, the
Court finds that while the public corporation ban was
enacted with discriminatory purpose, it does not have
a discriminatory effect as defined by controlling
precedent. 4
C. The Public Corporation Ban Fails Pike
Balancing
80. A law that does not directly discriminate
against interstate commerce may still offend the
dormant Commerce Clause if it fails the Pike
balancing test. 5 Pike provides a standard for assessing
The Court recognizes that this result—finding that the law
intentionally discriminates (or at least attempts to discriminate)
against out-of-state businesses but does not produce the effect
intended—may seem bizarre. However, the record demonstrates
that it was the Legislature’s intent to discriminate, but Wal-Mart
has not made the requisite showing that the public corporation
ban “has the effect of providing a competitive advantage to instate interests vis-a-vis similarly situated out-of-state interests.”
Ford, 264 F.3d at 501.
4

The Pike balancing test applies to the regulation of alcoholic
beverages. TABC cites a concurring opinion from the Seventh
Circuit to suggest that the Pike inquiry may not be applicable to
cases involving alcoholic beverages due to the Twenty-first
Amendment’s conferral of the authority to regulate the alcohol
industry to the states. See Lebamoff Enters., Inc. v. Huskey, 666
F.3d 455, 467 (7th Cir. 2012) (Hamilton, J., concurring) (“In my
view of the applicable law, the Twenty-first Amendment to the
Constitution should foreclose those balancing tests when the
state is exercising its core . . . power to regulate the
transportation and importation of alcoholic beverages for
consumption in the state.”). However, the Supreme Court has
5

App-110
state laws that regulate “even-handedly” but
nonetheless impose “incidental” burdens on interstate
commerce. Pike, 397 U.S. at 142; see also Wyoming v.
Oklahoma, 502 U.S. 437, 455 & n.12 (1992) (quoting
Brown-Forman Distillers Corp. v. New York State
Liquor Authority, 476 U.S. 573, 579 (1986))
(explaining that “a less strict scrutiny is appropriate”
when a law “has only indirect effects on interstate
commerce”).

rejected the argument that the Twenty-first Amendment
forecloses dormant Commerce Clause challenges to state
regulations of the alcohol industry. Granholm v. Heald, 544 U.S.
460, 484-85 (2005) (“The aim of the Twenty-first Amendment was
to allow States to maintain an effective and uniform system for
controlling liquor. . . . The Amendment did not give States the
authority to pass nonuniform laws in order to discriminate
against out-of-state goods, a privilege they had not enjoyed at any
earlier time.”); see also Healy v. Beer Institute, Inc., 491 U.S. 324
(1989). Moreover, the Supreme Court has repeatedly cited Pike
in dormant Commerce Clause cases involving alcoholic
beverages. Brown-Forman Distillers, 476 U.S. at 579; Bacchus
Imports, 468 U.S. at 270. And numerous federal courts of appeals
have applied Pike in cases involving alcohol. Baude v. Heath, 538
F.3d 608, 612 (7th Cir. 2008); Wine & Spirits Retailers, Inc., 481
F.3d at 15; see also Lebamoff Enters., 666 F.3d at 460 (compiling
cases). In the case cited by TABC, the majority opinions rejects
the contention that Pike does not apply to alcohol cases on the
basis that not a single federal appellate court has so held.
Lebamoff Enters., 666 F.3d at 460 (internal citations omitted)
(“Our Baude decision analyzed Indiana’s alcohol laws under
Pike’s balancing test and invalidated one of them, and other
courts have analyzed similar laws similarly. . . . [W]e find none
that rejects that approach.”). Thus, absent any controlling
authority expressly exempting the regulation of alcoholic
beverages from Pike’s ambit, the Court is compelled to apply the
Pike balancing test here.

App-111
81. The Pike balancing test has three steps. First,
a court must determine whether the challenged
regulation incidentally burdens interstate commerce.
Pike, 397 U.S. at 142. Second, a court asks whether
the regulation has “putative local benefits.” Id.
Finally, the court must weigh the local benefits of the
regulation against the burdens the regulation places
on interstate commerce. Id. A law reviewed under Pike
balancing “will be upheld unless the burden imposed
on such commerce is clearly excessive in relation to the
putative local benefits.” Id.
82. There is no clear standard for determining
whether a law incidentally burdens interstate
commerce. See Churchill Downs, 589 F. App’x at 235
(“We note that the jurisprudence in the area of the
dormant Commerce Clause is, quite simply, a mess. It
has failed to produce a readily discernible standard for
distinguishing
between
statutes
that
have
discriminatory effects and those that merely create
incidental burdens.”); see also Wyoming, 502 U.S. at
455 n.12 (quoting Brown-Forman Distillers, 476 U.S.
at 579) (“[T]here is no ‘clear line’ separating close cases
on which scrutiny should apply.”). The Fifth Circuit
has stated that “[a] statute imposes a burden when it
inhibits the flow of goods interstate.” Allstate, 495
F.3d at 163 (citing Ford, 264 F.3d at 503). Elsewhere,
the Fifth Circuit has stated that Pike balancing
applies to laws that have a “disparate impact on
interstate commerce,” defined as placing “burdens on
interstate commerce that exceed the burdens on
intrastate commerce.” Nat’l Solid Waste Mgmt. Ass’n
v. Pine Belt Reg’l Solid Waste Mgmt. Auth., 389 F.3d
491, 501 (5th Cir. 2004) (quoting Automated Salvage

App-112
Transp., Inc. v. Wheelabrator Envtl. Sys. Inc., 155 F.3d
59, 75 (2d Cir. 1998)).
83. Here, the public corporation ban places a
substantial burden on interstate commerce by
protecting Texas-owned package stores at the expense
of potential out-of-state entrants. Because of the ban,
the overwhelming majority (around 98%) of Texas
package stores and Texas package store companies
are wholly Texas owned. Supra Section VII. Moreover,
the credible evidence indicates that in the absence of
the ban, the Texas retail liquor market would likely be
served by numerous out-of-state companies. Id.
Texas’s retail beer and wine market (where the
challenged statutes do not apply) is an instructive
comparator. In that related market, out-of-state
companies serve a significant share of the market. Id.
Accordingly, the Court concludes that the public
corporation ban acts to block the vast majority of
potential out-of-state entrants from the Texas market,
while leaving undisturbed most potential in-state
entrants. Thus, the Court finds the public corporation
ban has a “disparate impact” on out-of-state
companies and Pike balancing applies. Nat’l Solid
Waste Mgmt., 389 F.3d at 501.
84. TABC and TPSA insist that the burden the
public corporation ban places on out-of-state
companies is not disproportionate to the burden it
places on in-state companies. TABC and TPSA submit
evidence they believe shows the share of companies
barred by the law that are based in Texas is roughly
proportional to Texas’s share of the national
population and national economy. To illustrate,
TPSA’s expert argued that, by his calculation, 19% of

App-113
potential entrants barred by the public corporation
ban are based in Texas, whereas Texas is home to
roughly 8% of the population and roughly 10% of the
top national retailers. See TABC Ex-48. From this
perspective, the public corporation ban appears to
treat in-state and out-of-state companies equally, or at
best, disproportionately harm in-state companies.
While appealing at first glance, the Court disagrees
with this understanding of what it means for a state
regulation to disproportionately affect interstate
commerce.
85. TABC and TPSA’s analysis errs by using the
wrong denominator. 6 Their approach compares the
The parties’ disagreement as to the appropriate denominator
and its import is best illustrated by example. Consider a single
state that accounts for 10% of the nation’s economy. Unregulated,
the state’s market for a product is served by 50 in-state
companies and 10 out-of-state companies. The state introduces a
law that bars from the local market 1 in-state company and 9 outof-state companies. Of all the companies blocked by the new law,
10% are in-state companies, whereas 90% are out-of-state
companies. From one perspective, the law does not have a
disproportionate effect on interstate commerce, because 10% of
the companies that are blocked by the law are in-state companies,
a figure which is comparable to the state’s 10% share of the
economy. On the other hand, of all the in-state companies that
originally served the market, only 2% are blocked by the new law;
whereas, of all the out-of-state companies that originally served
the market, 90% are blocked by the new law. Consequently, the
share of the market held by in-state companies increases as a
result of the law from 83% to 98%. Thus, from another
perspective, the new law has a severely disproportionate effect on
interstate commerce. The reason that the two approaches yield
such different results is that the makeup of the unregulated local
market bears no resemblance to the makeup of the national
economy.
6

App-114
makeup of the market created by the challenged
statutes to the makeup of the national economy. Yet,
even absent the challenged statutes, the Texas retail
liquor market would not be a perfect microcosm of the
national economy. Unregulated, that market would
probably have many more Texas-owned and Texasbased package stores than California-owned and
California-based package stores, even though
California has a larger population and a larger
economy than Texas. This is because only out-of-state
companies with the requisite capital and scale are
capable of entering the Texas market. See supra
Sections VII & VIII. If the challenged statutes are
lifted, a mom-and-pop package store in Bentonville,
Arkansas is unlikely to open a second location in
Austin, Texas. Wal-Mart, however, might.
86. The proper comparison is to what the market
would look like if the challenged statutes were not in
place. In other words, assessing disparate impact
requires the Court to measure the effect the public
corporation ban has on the in-state and out-of-state
companies that would otherwise serve the market if
not for the ban. This is the analysis typically employed
to measure discriminatory effect when courts compare
what a market looks like before and after a challenged
law goes into effect. Here, the analysis is complicated
by the fact that, prior to the enactment of the public
corporation ban, an unconstitutional residency
requirement was in effect. This means that the status
quo ex ante cannot be used as proxy for what the retail
liquor market would look like without the challenged
statutes. But the basic principle holds true: whether a
statute burdens interstate commerce is assessed by
comparing the role of out-of-state companies in the

App-115
market with and without the challenged law. Applying
this principle, the Court readily concludes that the
public corporation ban has a disparate impact on
interstate commerce because it disproportionately
blocks out-of-state companies form selling liquor in
Texas.
87. Having resolved the threshold inquiry of
whether the public corporation ban places a burden on
interstate commerce, the Court now turns to the next
step of the Pike inquiry, which requires consideration
of whether a state regulation has “a legitimate local
purpose” by assessing its “putative local benefits.”
Pike, 397 U.S. at 142. This inquiry requires deference
to the state legislature. See CTS Corp. v. Dynamics
Corp. of America, 481 U.S. 69, 92 (quoting Kassel v.
Consol. Freightways Corp., 450 U.S. 662, 678 (1981)
(Brennan, J., concurring in judgment)) (“The
Constitution does not require the States to subscribe
to any particular economic theory. We are not inclined
‘to second-guess the empirical judgments of
lawmakers concerning the utility of legislation.’”).
Accordingly, Pike’s second step imposes something
akin to a rational basis inquiry. See Int’l Truck &
Engine Corp., 372 F.3d at 728 (5th Cir. 2004) (quoting
Ford Motor Co., 264 F.3d at 504 (“[W]e credit a
putative local benefit ‘so long as an examination of the
evidence before or available to the lawmaker indicates
that the regulation is not wholly irrational in light of
its purposes.’”).
88. In assessing Wal-Mart’s equal protection
claim, the Court has subjected the public corporation
ban to a rational basis inquiry. See infra Section XI.A.
In doing so, the Court concludes that the public

App-116
corporation ban is rationally related to a legitimate
state interest. Most pertinently, the Court finds that
there is a conceivable relationship between the public
corporation ban and the state’s legitimate interest in
reducing the availability and consumption of liquor.
Because the statute is not wholly irrational, the Court
is required to credit it as having some putative local
benefits and a legitimate local purpose. Finding a
legitimate local purpose advances but does not resolve
the Pike inquiry.
89. The final step under Pike is to weigh the
challenged statute’s putative local benefits against the
burden the statute imposes on interstate commerce:
“If a legitimate local purpose is found, then the
question becomes one of degree. And the extent of the
burden that will be tolerated will of course depend on
the nature of the local interest involved.” Pike, 397
U.S. at 142. It also depends on whether the local
interests served by the regulation “could be promoted
as well with a lesser impact on interstate activities.”
Id.; see also Nat’l Solid Waste Mgmt., 389 F.3d at 501
(5th Cir. 2004) (holding that Pike compels
consideration of “the nature of the local interest and
whether alternative means could achieve that interest
with less impact on interstate commerce”).
90. In applying this balancing test, the Court first
notes that the burdens the public corporation ban
imposes on interstate commerce are substantial. As
has been explained, the law has been enacted and
maintained with the express goal of maintaining a
business climate created by a facially discriminatory
and unconstitutional residency requirement. The
statutes have had this effect: the vast majority of

App-117
potential out-of-state entrants are excluded from the
retail Texas liquor market, and that market is
consequently almost exclusively served by in-state
retailers. See supra Section VII.
91. Next, the Court finds that however
substantial the state’s interest in reducing the
availability and consumption of liquor may be, the
weight of the evidence demonstrates that this interest
can be achieved through alternative means with less
impact on interstate commerce. On this point, there is
hardly any dispute. The record consistently indicates
that any effects the public corporation ban has on the
price, availability, or consumption of liquor could be
more easily and more directly achieved through other
regulatory measures, including the imposition of
excise taxes (that raise the price of liquor) or the use
of manner-of-sales regulations (that control where and
how liquor can be sold). See supra Section VIII. The
available evidence suggests that excise taxes are the
most common and most efficacious policy tool for
minimizing externalities associated with liquor
consumption. Id. In fact, all five experts testified at
trial that excise taxes are an effective method of
discouraging the consumption of liquor. Id. Indeed,
TPSA concedes that a variety of “direct controls” are
available to Texas to reduce liquor consumption
(including, for example, “quotas or hard permit caps”),
and that among the available options, “a proven
method of reducing consumption is to increase excise
taxes.” TPSA Trial Br., Dkt. 314, at 18. Thus, the
record leaves little room to doubt that if Texas desired
to manage the price, availability, and consumption of
liquor without burdening interstate commerce, it
could easily do so. And Pike compels the Court to

App-118
account for the availability of these alternative
measures in weighing the benefits and burdens of the
challenged statutes.
92. In balancing these equities, the Fourth
Circuit’s holding in Yamaha Motor Corp., U.S.A. v.
Jim’s Motorcycle, Inc. is instructive. 401 F.3d 560 (4th
Cir. 2005). In that the case, the court considered a
Virginia statute that allowed existing motorcycle
dealerships to protest and block (or at least
substantially delay) the opening of new dealership
franchises anywhere in the state. The court
acknowledged that the Virginia law “is neutral on its
face” as it “makes no distinction between instate and
out-of-state manufacturers,” and found “no evidence”
that the law “would have any probable or discernible
discriminatory effects on interstate commerce.” Id. at
567-569. Accordingly, the court concluded that the law
“does not discriminate against interstate commerce.”
Id. at 569.
93. The court then applied Pike balancing. In
doing so, it held that the law “has a legitimate general
purpose: to protect existing motorcycle dealers in
Virginia from unfair practices by manufacturers” and,
accordingly, would survive rational basis review. Id.
at 568. On the other hand, the court reasoned that the
law is “uniquely anti-competitive” because it creates
“a significant barrier to market entry.” Id. at 571.
Critically, it found that any local benefits of the law
“could have been achieved with a less restrictive
alternative,” specifically by affording protest rights
only to dealerships within a limited radius of a new
dealership’s location. Id. at 573. The Fourth Circuit
concluded that in light of the law’s “unnecessary and

App-119
excessive breadth,” its “burdens clearly exceed its
benefits.” Id.
94. Here, as in Yamaha, the challenged statutes
serve a legitimate local purpose. But the public
corporation ban is also “uniquely anti-competitive,”
creates “a significant barrier to market entry,” and,
thus, imposes a “severe” burden on interstate
commerce. Id. at 571. Notably, the burden imposed by
the ban is more onerous than the burden imposed by
the dealership law at issue in Yamaha; the public
corporation ban outright blocks from the market the
vast majority of potential out-of-state entrants. In
Yamaha, the challenged law imposed only a limited
and surmountable obstacle to market entry. See id.
(noting that potential market entrants “are forced to
play a waiting game that could take years”). Moreover,
like in Yamaha, whatever benefits the public
corporation ban may have can be achieved using
alternative, more narrowly tailored regulatory tools.
See id. at 569 (“A statute need not be perfectly tailored
to survive Pike balancing, but it must be reasonably
tailored.”). Ultimately, the Court concludes that if it
were to uphold the protectionist scheme created by the
ban and allow Texas to bar the vast majority of
potential out-of-state entrants into the Texas liquor
market “it would jeopardize what the dormant
Commerce Clause aims to preserve: ‘a national [free]
market for competition undisturbed by preferential
advantages conferred by [individual states] upon
[their] residents or resident competitors.” Id. at 57374 (quoting General Motors Corp. v. Tracy, 519 U.S.
278, 299 (1997)) (modifications in original).

App-120
95. In sum, the public corporation ban imposes a
severe burden on interstate commerce. While the
statute has some putative benefits, those benefits can
be easily and more directly achieved through a variety
of alternative regulatory measures. Accordingly, the
Court concludes that burdens the ban places on
interstate commerce are clearly excessive relative to
its local benefits. Thus, the challenged statutes fail the
Pike balancing test.
D. The
Five-Permit
Limit
and
the
Consanguinity Exception Do Not Offend
the Dormant Commerce Clause
96. Wal-Mart also argues that the five-permit
limit independently offends the dormant Commerce
Clause. The Court disagrees.
97. First, there is insufficient evidence to find that
the five-permit limit and consanguinity exception
were enacted with discriminatory purpose. The only
evidence in the record indicating that these statutes
were enacted with discriminatory purpose arises out
of recent repeal efforts. See supra Section VI. There is
no evidence in the record suggesting the Legislature
acted with discriminatory purpose at the time these
laws were enacted. There is no evidence the “historical
background” of the laws or the “specific sequence of
events leading up” to the laws’ passage suggests
discriminatory purpose. Allstate, 495 F.3d at 160
(citing Arlington Heights, 429 U.S. at 266-68). There
is also no evidence of “contemporary statements by
decisionmakers” indicating discriminatory purpose.
Id. (citing Arlington Heights, 429 U.S. at 266-68).
While circumstantial evidence of discriminatory
purpose emanating from subsequent repeal efforts

App-121
may be helpful in ascertaining the Legislature’s
intent, alone it is insufficient to satisfy Wal-Mart’s
burden of demonstrating discriminatory purpose. See
id. (citing Hughes v. Oklahoma, 441 U.S. 322 (1979))
(“The burden of establishing that a challenged statute
has a discriminatory purpose under the Commerce
Clause falls on the party challenging the provision.”).
98. Second, the five-permit limit and the
consanguinity exception do not have a discriminatory
effect for the same reasons as the public corporation
ban. See supra Section X.B. The consanguinity
exception, like the public corporation ban,
discriminates against companies with diffuse
ownership. It is possible that this classification
disproportionately affects out-of-state companies.
However, the consanguinity exception does not
expressly differentiate between similarly situated
companies and does not have the practical effect of
discriminating against out-of-state companies based
on their contacts with the Texas. It thus does not have
a discriminatory effect. Exxon, 437 U.S. at 127;
Allstate, 495 F.3d at 163; Ford, 264 F.3d at 501.
99. Third, there is inadequate evidence to find
that the five-permit limit and consanguinity exception
burden interstate commerce. The record indicates that
the cumulative effect of the challenged statutes is to
disproportionately block out-of-state companies from
entering the Texas retail liquor market. However, all
of the available evidence explaining how the statutes
achieve this effect focuses on the role of the public
corporation ban. See supra Section VII. Given that
both statutes discriminate on the basis of a company’s
ownership structure, there is a basis to infer that the

App-122
consanguinity exception likely has a similar effect as
the public corporation ban. But, there is no specific
evidence in the record demonstrating that the
consanguinity exception disproportionately excludes
out-of-state companies. Thus, the Court declines to
apply Pike balancing to these statutes. However, the
Court notes that even if the Court were to review the
five-permit limit and consanguinity exception under
Pike balancing, the inquiry would be similar to the
rational basis inquiry, which the Court conducts
below. See Int’l Truck & Engine, 372 F.3d at 728
(explaining that under Pike a court credits a
regulation’s putative benefits as long as the
“regulation is not wholly irrational in light of its
purposes.’”).
XI. Equal Protection Clause
100. The Equal Protection Clause of the
Fourteenth Amendment states that “[n]o State
shall . . . deny to any person within its jurisdiction the
equal protection of the laws.” U.S. Const. amend. XIV,
§ 1. Wal-Mart argues that the challenged statutes
compel differential treatment of similarly situated
entities and thus violate this constitutional guarantee
of equal treatment. See Mahone v. Addicks Util. Dist.
of Harris Cty., 836 F.2d 921, 932 (5th Cir. 1988) (“The
equal protection clause essentially requires that all
persons similarly situated be treated alike.”). Because
Wal-Mart is not a member of a protected class, and the
challenged statutes do not infringe upon fundamental
constitutional rights, the Court applies rational basis

App-123
review. 7 Hines v. Alldredge, 783 F.3d, 202-03 (5th Cir.
2015).
101. To survive rational basis review, a law must
be “rationally related” to “a legitimate state purpose.”
Mahone, 836 F.2d at 932. To determine whether a law
is rationally related to its purpose, courts asses the
“fit” between the classification the law imposes and
the ends the law serves. Id. The determinative
question is “whether the state could rationally
determine that by distinguishing among persons as it
has, the state could accomplish its legitimate
purpose.” Id. Put differently, a law survives rational
basis review “if there is any reasonably conceivable
Wal-Mart argues that the public corporation ban ought to be
assessed using heightened scrutiny because it was enacted with
animus toward public corporations generally and animus toward
Wal-Mart in particular. In support, Wal-Mart cites a single case
involving same-sex marriage. See Bishop v. Smith, 760 F.3d
1070, 1099-1100 (10th Cir. 2014) (Holmes, J., concurring)
(discussing a line of cases where upon a finding of animus courts
have applied a more rigorous variant of the rational basis
inquiry). All of the cases compiled in the Bishop concurrence cited
by Wal-Mart involve animus toward people. Wal-Mart does not
cite any case where heightened scrutiny has been applied on the
basis of animus toward a corporation or some species of
corporations. This Court declines to become the first. Wal-Mart
also argues that the consanguinity exception should be assessed
under heightened scrutiny because it discriminates on the basis
of family status. See, e.g., Cox v. Schweiker, 684 F.2d 310, 320
(5th Cir. 1982) (applying “a standard of review that is more
exacting than a rational relations test” to a case involving
discriminatory treatment of illegitimate children). Here, the
Court is somewhat more sympathetic. But because the
consanguinity exception fails even rational basis review, the
Court need not decide whether a more exacting standard is
appropriate.
7

App-124
state of facts that could provide a rational basis for the
classification.” Madris-Alvarado v. Ashcroft, 383 F.3d
321, 332 (5th Cir. 2004) (quoting FCC v. Beach
Commc’ns, 508 U.S. 307, 313 (1993)); see also Romer
v. Evans, 517 U.S. 620. 631 (1996) (holding that a law
survives rational basis review “so long as it bears a
rational relation to some legitimate end”).
102. Rational basis review is a highly deferential
inquiry, but it is nonetheless a fact-intensive one. The
Fifth Circuit’s opinion in St. Joseph Abbey v. Castille,
712 F.3d 215 (5th Cir. 2013), is instructive. In St.
Joseph Abbey, the court struck down a Louisiana law
requiring that caskets be sold only by licensed funeral
directors at licensed funeral homes. Id. The Fifth
Circuit explained that “although rational basis review
places no affirmative evidentiary burden on the
government, plaintiffs may nonetheless negate a
seemingly plausible basis for the law by adducing
evidence of irrationality.” Id. at 223. The court
counseled that under rational basis review the
examination of the fit between a law and its purported
purposes should not proceed in abstraction but rather
should be “informed by the setting and history of the
challenged rule.” Id. The St. Joseph Abbey panel
framed “the pivotal inquiry” as “whether there is a
rational basis . . . that can . . . be articulated and is
not plainly refuted by the [plaintiffs] on the record
compiled by the district court at trial.” Id.
103. Wal-Mart argues that, at trial, it plainly
refuted the contention that the challenged statutes
serve any legitimate purpose. With regard to the
public corporation ban, the five-permit limit, and the
prohibition on BQ permittees holding P permits, the

App-125
Court disagrees. These statutes are all conceivably
related the state’s legitimate purpose reducing the
availability and consumption of liquor. Accordingly,
these statutes survive rational basis review.
104. However, the Court concludes that the
consanguinity exception to the five-permit limit
imposes an arbitrary classification that is not
rationally related to any legitimate state purpose.
This statute thus fails rational basis review.
Moreover, when a classification is deemed
unconstitutional, lower courts are instructed to craft a
remedy that expands rather than restricts access to
the rights or benefits at issue. Thus, the appropriate
remedy here is to enjoin enforcement of both the
underlying
the
five-permit
limit
and
its
constitutionally infirm exception.
A. The Public Corporation Ban Survives
Rational Basis Review
105. The Court begins with the public corporation
ban. TABC and TPSA contend that the state’s decision
to prohibit public corporations from selling liquor at
retail serves a number of purposes. Primarily, they
argue that the ban reduces the consumption of liquor
by increasing prices and limiting the density of retail
liquor outlets. It is undisputed that the state has a
legitimate interest in moderating the consumption of
liquor and minimizing liquor-related externalities.
For the reasons that follow, the Court concludes that
there is a conceivable relationship between
prohibiting public corporations from retailing liquor
and the state’s legitimate interest in discouraging the
consumption of liquor. Because the state’s interest in
moderating the consumption of liquor provides the

App-126
public corporation ban adequate support to survive
rational basis review, the Court need not address the
other proffered rationales (which include promoting
small businesses and corporate accountability).
106. There is a conceivable relationship between
the public corporation ban and the state’s legitimate
purpose of moderating the consumption of liquor and
reducing liquor-related externalities. The state could
reasonably believe that excluding public corporations
from the market would artificially inflate liquor prices
(and thus reduce consumption) for at least two
reasons.
107. First, the state could reasonably believe that
excluding public corporations would reduce the total
number of firms participating in the market, shift the
supply curve, and, as a matter of economic principle,
drive up prices. See supra Section VIII. Wal-Mart
insists that the market, even without the participation
of public corporations, has reached competitive
equilibrium and thus argues that allowing public
corporations to enter the market would have no effect
on price. Even assuming Wal-Mart is correct on this
point, it simply shows that Texas misjudged the
competitiveness of the liquor market. Wal-Mart’s
burden is to show that there is no reasonably
conceivable state of facts that might provide a basis
for the law. The record indicates it is reasonable for
the state to believe that excluding a large number of
suppliers from the market might inflate prices.
108. Second, the state could reasonably believe
that public corporations have the necessary scale and
capital to offer aggressive discounts. See supra Section
VIII. Wal-Mart argues that Texas’s three-tier system

App-127
prevents even extremely large companies from
exerting any scale advantage. Again, this proves too
little. White it may be the case that elements of the
three-tier system mitigate the ability of large
companies to use scale to their advantage, this simply
shows that the putative benefits of the ban are
unlikely to fully materialize. It does not show that the
state’s proffered basis for the law lacks any rational
basis. To the contrary, the record indicates that there
is reasonable basis for Texas to conclude that public
corporations are likely to be larger and betterresourced, and that these sorts of companies are, at
least plausibly, more likely to offer competitive
discounts. Id.
109. Notably, Wal-Mart’s contention that there is
no rational basis to believe that the public corporation
ban inflates liquor prices is undercut by its own
repeated assertions to the contrary. In an internal
document spelling out “Key Messages” with regard to
this litigation and related lobbying efforts, Wal-Mart
stated, “The current law’s ban on public corporations
selling spirits . . . serves to prevent competition and
limit choice and convenience, as well as keep the price
of spirits artificially high, all of which harm Texas
consumers.” TABC EX-40. In its complaint in this very
lawsuit, Wal-Mart alleges, “[T]he ban against public
corporations negatively impacts Texas consumers,
who are forced to pay non-competitive prices because
fair competition is prevented.” Orig. Compl. Dkt. 1,
¶ 28.
110. Wal-Mart responds that even if there is a
reasonable basis to believe that the public corporation
ban will indirectly inflate liquor prices, the

App-128
classification is still too attenuated and arbitrary to
survive rational basis review. To the extent the ban
drives up prices—the argument goes—it does so
simply by excluding a subset of retailers from the
market and thus reducing aggregate supply. WalMart argues that the same effect might be achieved by
excluding companies whose owners have blond hair or
were born on an odd-numbered day or by some other
totally arbitrary classification. Yet, here the
classification is not totally arbitrary. The record
indicates that Texas could reasonably believe public
corporations tend to be larger and better resourced
than their closely-held competitors. So, the state could
conceivably predict that, because of their scale,
excluding public corporations would have a larger
effect on prices than excluding some other subset of
retailers. See supra Section VIII.
111. The Court notes that, in the context of its
dormant Commerce Clause claim, Wal-Mart has
(persuasively) argued that public corporations are
precisely those companies that are likely to have the
scale and resources to enter the Texas market from
out of state. Wal-Mart cannot have it both ways. It
cannot both be the case that the public corporation
classification is entirely arbitrary and yet, at the same
time, an effective proxy for the subset of companies
that have the resources to compete across state lines.
112. In sum, Texas could reasonably believe that
excluding public corporations from the retail liquor
market would artificially inflate prices, thereby
moderating the consumption of liquor and reducing
liquor-related externalities. Wal-Mart has adduced
evidence that casts doubt on whether the law will have

App-129
this effect. But Wal-Mart has not proven that the
state’s theory that excluding large, well-resourced
companies from the market might drive up prices is
pure “fantasy.” St. Joseph Abbey, 712 F.3d at 223.
Thus,
the
public
corporation
ban,
while
constitutionally infirm under the dormant Commerce
Clause, does not offend the Equal Protection Clause.
B. Section 22.06(a)(2) Survives Rational
Basis Review
113. Next, the Court turns to section 22.06(a)(2),
which prohibits the holder of a wine and beer retailer’s
off-premise permit, known as a BQ permit, from also
holding a package store permit. Most grocery stores in
the state hold BQ permits, which allow them to sell
both beer and wine. Wal-Mart’s existing retail stores
in the state all hold BQ permits. Accordingly, before
Wal-Mart could obtain any package store permits, it
would be required to convert its BQ permits into
separate BF licenses (for beer) and Q permits (for
wine). The rights conferred by the BQ permit are
nearly identical to the rights conferred by the
combination of the BF and Q permits, with a few
minor differences. (The most relevant distinction is
that a Q permittee may sell wine with up to 24%
alcohol content, whereas a BQ permittee may only sell
wine with up to 17% alcoholic content.) Wal-Mart
contends that the process of converting its permits
would require significant time and expense. In
addition to being burdensome, Wal-Mart believes that
this restriction is arbitrary. It thus argues that the
restriction fails rational basis review because it
differentiates between entities that hold BQ permits

App-130
and those that do not, without basis. The Court
disagrees for two reasons.
114. First, section 22.06(a)(2) does not impose a
classification cognizable under the Equal Protection
Clause. “Because the clause’s protection reaches only
dissimilar treatment among similar people, if the
challenged government action does not appear to
classify or distinguish between two or more relevant
persons or groups, then the action does not deny equal
protection of the laws.” Mahone, 836 F.2d at 932. Here,
section 22.06(a)(2) treats all entities the same: they
may elect to obtain a BQ permit or not. Any entity that
chooses to obtain a BQ permit is not allowed to obtain
a package store permit. Wal-Mart contends that the
law discriminates against the holders of BQ permits,
while favoring entities that do not hold BQ permits.
Yet, the beneficiaries of this purportedly preferential
scheme (entities that do not hold BQ permits) are
treated no differently than Wal-Mart or other BQ
permittees—they have simply made a different
decision. The law itself applies to all parties equally.
115. Second, section 22.06 is rationally related to
limiting the number of retail liquor outlets and
moderating liquor consumption. The law forces
retailers to choose between the privileges of selling
less potent alcoholic beverages using a single
streamlined BQ permit or, if it wants to sell more
potent beverages, to endure the time and expense of
obtaining more permits at a higher cost and to be
subject to more regulatory strictures. Wal-Mart’s
objection that converting its BQ permits into BF
licenses and Q permits will be a costly process simply
underscores that section 22.06 effectively discourages

App-131
retailers (particularly those already selling beer and
wine) from entering the package store market. Thus,
there is a conceivable relationship between section
22.06 and the state’s legitimate interest in reducing
the number of retailers in the liquor market and
reducing the number of retail liquor outlets. The Court
is not persuaded that there is no rational basis for
Texas’s decision to prevent BQ permittees from
procuring package store permits.
C. The
Five-Permit
Limit
Rational Basis Review

Survives

116. The Court next turns to the five-permit limit,
which (subject to the consanguinity exception
discussed below) prohibits any entity from holding an
interest (“in” or “in an entity holding”) more than five
package store permits. The five-permit limit is
rationally related to the state’s legitimate interest in
limiting the number and density of retail liquor
outlets in order to reduce the availability and increase
the price of liquor. Numerous states impose similar
permit limits, see TABC Ex-67, and these limits have
been repeatedly upheld by other courts, e.g., Parks v.
Allen, 426 F.2d 610, 614 (5th Cir. 1970) (upholding an
Atlanta ordinance that prohibited issuance of more
than two liquor licenses to single family); McCurry v.
Alcoholic Bev. Control Div., 4 F. Supp. 3d 1043, 1047
(E.D. Ark. 2014) (upholding Arkansas’s one-permit
limit). The five-permit limit, standing alone, survives
rational basis review.
D. The Consanguinity Exception
Rational Basis Review

Fails

117. Finally, the Court turns to the consanguinity
exception to the five-permit limit. Tex. Alco. Bev.

App-132
Code. § 22.05. Under this statute, two family members
within the first degree of consanguinity that each have
a majority interest in an entity that holds package
store permits may consolidate their package store
businesses into a single legal entity. The new,
consolidated entity may retain all of the package store
permits, notwithstanding the five-permit limit. There
is no limit to the number of times that a permittee may
use the same relative to obtain and consolidate
additional permits. A single consolidating relative is
enough to enable a business to obtain an unlimited
number of permits. Texas’s largest package store
companies all have substantially more than five
permits because of the consanguinity exception.
118. This consolidation process, however, is not
available to everyone. To be eligible for consolidation,
both family members must have a majority interest in
their respective entities. No single person owns a
majority interest in Wal-Mart, meaning Wal-Mart, if
it were allowed to hold package store permits, would
be limited to five permits. The same is true for many
companies with diffuse ownership. Other companies
may not have access to the consolidation process not
because they lack a single majority interest holder,
but because their majority interest holder lacks a
child, sibling or parent who is willing to assist with the
consolidation process.
119. It is helpful to begin the rational basis
inquiry by identifying the legal classification at issue.
Here, the consanguinity exception differentiates
between companies that are majority owned by a
single natural person who has a family member within
the first degree of consanguinity who is willing and

App-133
able to assist in the consolidation process and
companies that do not. Wal-Mart argues that there is
no rational basis for such an unusual classification.
The Court agrees.
120. TABC offers a variety of rationales in support
of the consanguinity exception, including that it:
(1) promotes family businesses, (2) promotes small
businesses, (3) enables estate planning, and
(4) creates an opportunity for package stores to grow
in certain areas, such as large cities. None of these
rationales is persuasive.
121. First, there is no rational relationship
between the consanguinity exception and promoting
family businesses. Assuming that promoting familyowned or family-managed businesses is a legitimate
state interest, the consanguinity exception does the
exact opposite. To begin with, the statute does not
favor family owned businesses; it favors businesses
that are owned by people with certain types of family
members. For example, a package store company
wholly owned by a single person whose family
members have no involvement in the company
whatsoever (either as owners, managers or employees)
may still use the consanguinity exception to obtain
more than five permits as long as the owner has a
single child, sibling, or parent who is willing to
complete the necessary consolidation paperwork. Yet,
such a company—wholly owned by a single person—is
surely not a family business.
122. More to the point, under the consanguinity
exception, the consolidating relative may not be
employed by the current permittee or have any
ownership in the permittee’s business. The five-permit

App-134
limit prohibits any person from “directly or indirectly”
having an interest in more than five permits, and a
company’s “stockholders, managers, officers, agents,
servants, and employees” are all considered to have an
interest in the company’s permits. Tex. Alco. Bev.
Code. § 22.05. Exceeding the five-permit limit
therefore requires a family member with no
involvement in the package store company who can
independently obtain more permits and then
consolidate them into the existing business. The law
thus discourages family members from becoming
involved in the business, because by doing so a family
member would disqualify herself from obtaining and
consolidating more permits. Unsurprisingly, there is
not a scintilla of evidence in the record suggesting that
the consanguinity exception has had any effect on the
number of package store companies that are “family
businesses,” however that term may be defined.
123. Second, there is no rational relationship
between the consanguinity exception and promoting
small businesses. The five-permit limit promotes
small businesses by restricting the number of permits
any company may hold and thus placing a ceiling on
the growth of any one package store company. The
consanguinity exception does the exact opposite: it
exempts some companies from the five-permit limit,
allowing them to circumvent the ceiling that the limit
imposes. The exception creates an opportunity for a
limited class of businesses to avoid the five-permit
limit and thus promotes the growth of large package
store chains. If it were not for the consanguinity
exception, no package store company in the state
would own more than five package stores. Yet, because
of the exception, Texas has several large package store

App-135
chains, one of which owns over 150 package stores. See
supra Section IV.
124. Third, there is no rational relationship
between the consanguinity exception and estate
planning. TABC suggests that the exception provides
a succession mechanism that is somehow helpful in
estate planning. Yet, it is entirely unclear how this
consolidation procedure aids the process of estate
planning. As with any other type of business, there are
many tools available to a package store owner who
wants to ensure her business assets are appropriately
transferred after her death. Even if some form of
consolidation procedure may serve estate planning
purposes, TABC does not even attempt to explain why
allowing a consolidated entity to avoid the five-permit
limit has any relationship to estate planning.
Moreover, assuming the consanguinity exception is
somehow helpful in the estate planning process, TABC
does not explain why it should be limited to such a
narrow class of package store permit holders. The
owners of package store companies that do not have a
child, sibling or parent who is able to assist in the
consolidation process also have estates that require
resolution. In the Court’s view, this rationale borders
on nonsensical and cannot save the consanguinity
exception from constitutional scrutiny.
125. Fourth, there is no rational relationship
between the consanguinity exception and allowing for
package store companies to grow in targeted areas.
There is nothing in the law that limits package store
companies that utilize the consolidation process to
opening new stores in areas where growth is needed.
Companies which use the consolidation procedure can

App-136
and do open new package stores wherever they please.
If Texas believes the five-permit limit is overly
restrictive, it is free to raise it. Similarly, if Texas
believes there are certain underserved areas in need
of more retail liquor outlets, it is, of course, free to
create a tailored exception. But the notion that the
consanguinity exception—as blunt and arbitrary as it
is—somehow serves a targeted growth strategy simply
beggars belief.
126. In sum, the consanguinity exception creates
an unusual and entirely arbitrary classification. There
is no reason to believe that the exception bears any
relation to the promotion of family business or small
business or serves any other legitimate state interest.
It thus fails rational basis review.
127. Having resolved that the consanguinity
exception fails rational basis review, the question
remains what relief is warranted. The Fifth Circuit
instructs,
When a statute conferring benefits on a
certain
class
of
persons
is
held
unconstitutional due to violation of the equal
protection clause, then the unlawful
discrimination must be eradicated, either by
granting the benefits to the inappropriately
excluded class, or by denying them to the
class theretofore benefitted unlawfully. In
such cases where a sovereign has
intentionally conferred some type of benefit
upon
one
group
and
thereby
unconstitutionally deprived another, the
normal judicial remedy is to extend the
benefits to the deprived group. Otherwise the

App-137
result is an imposition of hardship on a
number of persons whom the legislature
intended to protect.
Cox v. Schweiker, 684 F.2d 310, 317 (5th Cir. 1982)
(internal citations omitted) (citing Califano v.
Westcott, 443 U.S. 76 (1979)); Welsh v. United States,
398 U.S. 333 (1970); see also Califano, 443 U.S. at 89
(quoting Welsh, 398 U.S. at 361) (holding that “[w]here
a statute is defective because of underinclusion,” the
appropriate remedy is “extension rather than
exclusion”).
128.
The
consanguinity
exception
is
unconstitutional because it extends a benefit (the
right to have more than five package store permits) to
some persons while withholding it from others without
a rational basis. In light of the above-stated law, the
appropriate remedy is to “extend the coverage of the
statute to include those who are aggrieved by the
exclusion.” Califano, 443 U.S. at 89. Here, that means
allowing all persons to hold more than five package
store permits. This result is achieved by enjoining
enforcement of both the consanguinity exception and
the five-permit limit to which it applies.
RELIEF
129. For the foregoing reasons, the Court
concludes and hereby DECLARES that: (1) Section
22.16 of the Texas Alcoholic Beverage Code, the public
corporation ban, is inconsistent with the dormant
Commerce Clause of the United States Constitution,
and (2) Section 22.05 of the Texas Alcoholic Beverage
Code, the consanguinity exception, is inconsistent
with the Equal Protection Clause of the United States
Constitution.

App-138
130. Defendants in this action are hereby
permanently ENJOINED from enforcing Section
22.16 of the Texas Alcoholic Beverage Code.
131. Defendants in this action are hereby
permanently ENJOINED from enforcing Section
22.04 of the Texas Alcoholic Beverage Code.
132. Defendants in this action are hereby
permanently ENJOINED from enforcing Section
22.05 of the Texas Alcoholic Beverage Code.
133. This order and all relief granted herein are
hereby provisionally STAYED for a period of sixty
days. Any party intending to seek a stay for the
duration of a forthcoming appeal shall so move the
Court within ten days of the date of this order.
134. Finally, the Court concludes it is appropriate
to defer consideration of whether Plaintiffs are
entitled to reasonable attorneys’ fees and costs until
after the resolution of any appeals. Accordingly, the
Court will consider a motion for reasonable attorneys’
fees and costs only after all appeals have been fully
and finally resolved.
SIGNED on March 20, 2018.
[handwritten: signature]
ROBERT PITMAN
UNITED STATES DISTRICT JUDGE

App-139
Appendix E
RELEVANT CONSTITUTIONAL AND
STATUTORY PROVISIONS
U.S. Const. art I, §8, cl. 3
The Congress shall have Power . . .
*

*

*

To regulate Commerce with foreign Nations, and
among the several States, and with the Indian Tribes;
*

*

*
Tex. Alco. Bev. §22.16

(a) A package store permit may not be owned or held
by a public corporation, or by any entity which is
directly or indirectly owned or controlled, in whole or
in part, by a public corporation, or by any entity which
would hold the package store permit for the benefit of
a public corporation.
(b) For purposes of this section, a public corporation
means:
(1) any corporation or other legal entity whose
shares or other evidence of ownership are listed
on a public stock exchange; or
(2) any corporation or other legal entity in which
more than 35 persons hold an ownership interest
in the entity.
(c) Before the commission may renew a package store
permit, an individual who is an owner or officer of the
permittee must file with the commission a sworn
affidavit stating that the permittee fully complies with
the requirements of this section.

App-140
(d) This section shall not apply to a package store
located in a hotel.
(e) Any package store permittee who is injured in his
business or property by another package store
permittee or by any other person by reason of anything
prohibited in this section may institute suit in any
district court in the county where the violation is
alleged to have occurred to require enforcement by
injunctive procedures and to recover triple damages
plus costs of suit including reasonable attorney's fees.
(f) This section shall not apply to a corporation:
(1) which was a public corporation as defined by
this section on April 28, 1995; and
(2) which holds a package store permit on April
28, 1995, or which has an application pending for
a package store permit on April 28, 1995; and
(3) which has provided to the commission on or
before December 31, 1995, a sworn affidavit
stating that such corporation satisfies the
requirements of Subdivisions (1) and (2).

